<html>
<title> - GETTING COUNTED: THE IMPORTANCE OF THE CENSUS TO STATE AND LOCAL COMMUNITIES FIELD HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                            GETTING COUNTED:
                             THE IMPORTANCE
                             OF THE CENSUS
                     TO STATE AND LOCAL COMMUNITIES
                             FIELD HEARING

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 28, 2019

                               __________

                           Serial No. 116-30

                               __________

      Printed for the use of the Committee on Oversight and Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-685 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a3a250a293f393e222f263a6429252764">[email&#160;protected]</a>                                 
                        
                        
                        
                        
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
         Valerie Shen, Chief Counsel and Senior Policy Advisor
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Justin Amish, Michigan
Robin Kelly, Illinois                Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol Miller, West Virginia
                         
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
                                                                   
                                                                   
                                                                   
Hearing held on May 28, 2019.....................................     1

                               Witnesses

Gail Mellow, President, LaGuardia Community College
Oral Statement...................................................    11
Carlos Menchaca, Councilmember, New York City Council
Oral Statement...................................................    12
Julie Menin, Census Director, City of New York
Oral Statement...................................................    14
Joseph Salvo, Chief Demographer, Population Division, NYC 
  Department of City Planning
Oral Statement...................................................    16
Melva Miller, Executive Vice President, Association for a Better 
  New York
Oral Statement...................................................    18
Steven Choi, Executive Director, New York Immigration Coalition
Oral Statement...................................................    20
Marc Morial, President and CEO, National Urban League
Oral Statement...................................................    31
Greta Byrum, Co-Director, New School Digital Equity Laboratory
Oral Statement...................................................    33
Elizabeth OuYang, Civil Rights Attorney, Educator, and Community 
  Advocate
Oral Statement...................................................    35
Jorge Luis Vasquez, Jr., Associate Counsel, Latino Justice PRLDF
Oral Statement...................................................    37
Lurie Daniel Favors, Esq., General Counsel, Center for Law & 
  Social Justice
Oral Statement...................................................    38
Kazi Fouzia, Desis Rising Up and Moving
Oral Statement...................................................    41

Written opening statements and witness' written statements are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents entered into the record for this hearing are listed 
  below/available at: https://docs.house.gov.

  * National Association of Latino Elected and Appointed 
  Officials (NALEAO) Report and written statement; submitted by 
  Chairman Raskin.


 
                            GETTING COUNTED:
                             THE IMPORTANCE
                             OF THE CENSUS
                     TO STATE AND LOCAL COMMUNITIES
                             FIELD HEARING

                              ----------                              


                         Tuesday, May 28, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:17 p.m., in 
The Little Theater, LaGuardia Community College, 31-10 Thomson 
Avenue, Long Island City, New York, Hon. Jamie Raskin, 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Ocasio-Cortez, 
and Meeks.
    Mr. Raskin. Good afternoon. The subcommittee will come to 
order. Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    This hearing is entitled ``Getting Counted: The Importance 
of the Census to State and Local Communities.'' I want to thank 
LaGuardia Community College and the people of Long Island, city 
of New York, for welcoming us here today, and I will now 
recognize myself for five minutes to give an opening statement.
    I want to thank all of you for being here for this exciting 
and historic meeting of the Civil Rights and Civil Liberties 
Subcommittee of the Oversight Committee.
    I want to extend a special thanks to LaGuardia Community 
College and to President Gail Mellow for your wonderful 
hospitality.
    This college, which has 57,000 students with roots from all 
over the world, is a great instrument of educational 
opportunity and advancement for the young people who come here 
and it is the perfect place for us to come to publicize the 
importance of the Census for getting every person counted in 
America.
    So I wanted to also begin by saluting my wonderful 
colleagues from the New York delegation who are members of this 
subcommittee: Carolyn Maloney, from the 12th District, which we 
are in today, and Alexandria Ocasio-Cortez from the 14th 
District.
    Representative Maloney has fought like a tiger for an 
additional billion dollars for Census outreach in 2020 and she 
co-founded the House Census Caucus.
    Ms. Ocasio-Cortez has been a passionate champion of making 
sure everyone in New York City and across the United States 
gets counted in the Census and counts in the formulation of our 
public policy.
    We will also be joined shortly by Congressman Gregg Meeks 
of the 5th District of New York, and we are going--I will move 
upon his arrival to waive him onto the committee today for the 
purposes of his participating in the proceedings.
    So I am a representative from the 8th District of Maryland, 
which is Montgomery, Frederick, and Carroll County in Maryland, 
and I want to begin by telling you a story about my youngest 
daughter, Tabitha, who when she was in 1st grade was involved 
in a--I guess they were doing their class project about 
diversity and multiculturalism, and she came home one day and 
she said, ``Dad, in my class we have nine African Americans, 
seven white people, six Hispanic Americans, five Asian 
Americans, and three absent Americans.''
    Okay. And I said, ``Tabitha, you can be any kind of 
American you want but don't be an absent American. Be a present 
American. Be engaged, be active, and stand up,'' and I think 
that will be the theme of our hearing today: how can we make 
sure that everybody is a present American on the day when the 
Census is conducted.
    How do we make sure everybody, every person in the country, 
is counted pursuant to the vision of the Founders, which is 
that every person, whether or not they could vote--because 
women couldn't vote when the country started but they were 
counted in the Census, and children couldn't vote but they were 
counted in the Census, and noncitizens could vote in a lot of 
places if they were property-owning white men noncitizens--but 
noncitizens, whether or not they could vote, they were counted. 
The purpose of the Census was to make sure that everybody was 
counted.
    And I want to invoke a Republican president who made 
America truly great, Abraham Lincoln, who spoke of government 
of the people, by the people, and for the people, and that has 
been the tantalizing dream of America.
    The Constitution begins with the three magic words ``We, 
the people,'' and it flows very quickly into Article I, which 
grounds the apportionment of the House of Representatives in 
the decennial enumeration--the actual enumeration of the 
people.
    So the Census is the central and recurring mandate for 
American constitutional democracy. It is as important to us as 
elections and it is indeed critical to the success of the 
electoral process itself.
    Now, we have to concede that games have been played with 
who "the people" are from the very beginning. The infamous 
three-fifths clause provided that African Americans would be 
counted only 60 percent for the awarding of U.S. House seats 
and Federal funding.
    Of course, the Northern states argued that African 
Americans, since they could not vote and could not run for 
office, should not be counted at all to inflate the size of the 
Southern House delegations.
    The Southern delegations, for these purposes, said that 
the--that the slave population should be counted 100 percent 
and it was that controversy that led to the infamous three-
fifths compromise.
    The politics of the Census and reapportionment have always 
been controversial and fascinating, and sometimes heated, in 
our history.
    Today, we are embroiled in controversy over the decision to 
add a citizenship question to the Census outside of the normal 
administrative process, and if it--if it proceeds in this way, 
this will be the first time in 60 years that the citizenship 
question will be part of the whole Census process.
    What will the implications of this decision be? Will it 
have a chilling effect--negative consequences for the accuracy 
of the Census?
    We will try to determine that today through the testimony 
of our expert witnesses. Census information is used to 
distribute more than $675 billion of funding to local, state, 
county, and tribal governments.
    This includes funding for Medicaid, Medicare Part B, the 
SNAP program, Head Start, highway planning and construction, 
the Pell Grant program, the national school lunch program.
    That is just a small sampling of the 132 Federal programs 
that rely on Census data for the distribution and allocation of 
Federal money.
    In my home state of Maryland, we received $234 million in 
2015 to support the Maryland Children's Health Program. In 
2016, we received $116 million for the Women, Infant, and 
Children--WIC--program, and one study found that Maryland 
received $16 billion in Federal funding for 55 programs in 
2016.
    But the Census is not just important for the distribution 
of Federal funding. It is also critical to how state and local 
governments make all manner of policy decisions that affect the 
distribution of funds and the commitment of funds locally, such 
as deciding whether a neighborhood needs more schools or not, 
determining where to focus funding for public housing, choosing 
where to put bus routes and highway transportation and so on.
    Local politicians rely on Census data just as Federal 
programs rely on it as well. So we have to make every effort to 
prevent an undercount in 2020. The Census has identified hard-
to-count communities across America.
    They include young children, people of color, low-income 
households, foreign-born residents, and households with limited 
or no internet access.
    Communities that have been historically under served by our 
government and are at risk of being under served even more if 
we don't guarantee that everybody is counted in the Census.
    I want to note that some positive strides have been made to 
modernize the 2020 Census. For the first time, people will be 
able to complete the Census online.
    The Bureau is streamlining and digitizing its address, 
canvassing and making use of existing government data bases to 
ensure no one is missed.
    But these innovations, obviously, have risks as well. We 
know there are large segments of the population that have 
limited internet access both in rural areas and in dense urban 
cores.
    We know that seniors may have less capability to respond 
and foreign-born residents may have less familiarity with the 
U.S. Census, and we also know that our rich diverse nation 
speaks a vast array of languages.
    So, in sum, we are having this hearing because there are 
problems in the Census that we want to try to address. But we 
also want to use New York as an example of how one local 
community is getting the word out to its people about the 
importance of everybody being counted and we want to talk about 
the public education efforts that are taking place here and can 
be taking place across the country involving county, city, 
local governments as well as community-based organizations and 
advocacy groups to make sure that everyone participates in the 
Census.
    We would like to see similar efforts from every level of 
government all across the country in 2020.
    All right. With that, I am inviting my colleagues to give 
opening statements of their own and let me acknowledge the 
arrival of our distinguished colleague, Gregory Meeks, here 
from New York, and without objection I will move that he be 
waived onto the committee so he can participate in today's 
proceedings.
    Mrs. Maloney, let us start with you.
    Mrs. Maloney. Well, thank you so very much for being here 
today, all of you, and I am delighted to welcome my colleague 
into my district and I especially am grateful to Chairman 
Raskin for organizing and really permitting this hearing and 
bringing the subcommittee here to New York, and to 
Congresswoman Alexandra Ocasio-Cortez for advocating and 
working incredibly hard to secure this hearing and supporting 
all of the efforts for a more accurate count for the Census.
    And I am very pleased that our new county leader, who is 
also my colleague and friend from Congress, is here and he will 
be leading the efforts for the count in the borough--the great 
borough of Queens. Thank you so much for joining us, too.
    And a very, very deep appreciation to Dr. Mellow and the 
LaGuardia Community College not only for hosting us today but 
for their incredible work all year long.
    As a former teacher, I can tell you after very close 
observation, Dr. Mellow is one of the most talented and 
dedicated educators I have ever met and I--one award after 
another after another after another.
    And a true story--every time I went to bat for this school 
it always won based on merit and based on what the school does, 
and I want to add my voice to those of the students that we 
regret that you will be retiring this year.
    And I really am so glad that so many of the leaders not 
only of major organizations and the city are here today with us 
and I hope that your knowledge and with Julie Menin and the 
Mayor and others we can come up with a toolkit that we can take 
back to Congress on how to reach out, how to get everybody 
counted because we are going to have to rely on ourselves in 
many instances.
    This is a very, very critical time for the Census cycle. 
Next month the Census forms must be printed. Just over one year 
from now the forms will start being sent out to every single 
person living in the United States.
    They will be mailed to people's homes, dropped off at 
senior centers, at other programs. They will be distributed by 
Census outreach people.
    Information will be collected electronically and digitally 
for the first time and they will have an app where we can look 
and see how different neighborhoods are progressing or not 
progressing so that we can get more resources to them.
    It is an enormous undertaking. It is the largest peacetime 
national mobilization by our great country and we have only one 
chance to get it right.
    The requirement as set forth in our Constitution is that 
every person must be counted. Every single person in the United 
States, living in the United States, visiting the United 
States, everyone must be counted. Not just citizens, not just 
legal residents, but everyone--everyone has got to be counted.
    And the witnesses here today are dedicated to making sure 
that that happens for our city, for our state, and indeed for 
every community across our country.
    The importance of counting every person cannot be 
overstated. We are all supposed to be counted precisely because 
we are all in this together.
    And, simply put, if you are not counted you are not 
represented. If you are not counted, then you and your 
community do not receive the just amount of Federal funding 
which is due you as a resident of our city.
    Census data drives nearly $73 billion- as in B 09 dollars 
to New York City and state every single year. That is almost 
$2,700 per New Yorker.
    This is money for everything from Medicare, Medicaid, 
infrastructure, children's health insurance, school lunches, 
heating assistance, and much, much more.
    And if we aren't counted then the just amount of money will 
not come to us, and as New Yorkers we know we are going to 
provide the services whether the person is counted or not. So 
we might as well get the money that we need to support them.
    States and cities also use Census data for nearly every 
planning decision they make like projecting where schools 
should be built, designing transportation routes. If our data 
are not correct, then our planning and our policies are not 
correct.
    Businesses of every size and in every sector rely on Census 
data for nearly every strategic decision they make. Whether to 
open a new store and where, whether to launch a new product or 
how to advertise and reach people for their businesses.
    And probably most importantly, the Census forms the very 
foundation for our democracy, for our representation. Census 
numbers determine how many electoral votes and seats in the 
House of Representatives each state is allotted.
    Also, our city representation and our state representation 
is based on Census numbers.
    So, simply put, and I underscore this, if you are not 
counted you are not represented. So it is the responsibility 
for everyone to be counted and represented.
    Despite the critical importance of an accurate Census 
count, we have an administration in Washington that seemingly 
wants to manipulate the count.
    They are taking steps that experts agree will result in a 
severe undercount. They have starved the Census Bureau of much-
needed funding. We have fought to increase that funding.
    They have installed hyper-partisan operatives in important 
Census positions that are supposed to be held by experts and 
professionals, and they have chosen to really sow fear and 
distrust through adding an unnecessary question on the Census 
form on citizenship.
    So far, three Federal judges in New York, in Maryland, and 
California have unanimously ruled that adding this citizenship 
question violates Federal law and the Constitution, or both.
    Judge Furman in the Southern District of New York even 
cited Appellate Court decisions, saying Federal agencies and 
departments cannot disregard Federal law when making decisions, 
and all three judges ruled that adding a citizenship question 
would violate the Administrative Procedures Act.
    If Commerce Secretary Wilbur Ross genuinely wanted to 
gather more information about U.S. citizens, he would have 
tried to get this information from government records.
    Instead, he went straight to adding the citizenship 
question. It is why I believe that this is not only a violation 
of Federal law but also a deliberate attempt to suppress 
participation.
    Everyone agrees that a citizenship question will depress 
turnout, including six former Census directors who were both 
Republican and Democratic, and also the current chief scientist 
for the Census Bureau, who estimates that adding this question 
will decrease participation by at least 5.8 percent, which is, 
roughly, 6 million people--roughly, the size of the state of 
Rhode Island.
    The administration's appeal has gone up to the courts and 
we will see. I say that the--that this is--I want to make clear 
that we cannot rely on this administration to do what is best 
for an accurate count.
    Once again, New Yorkers must lead when the Federal 
Government has not been fair to us and we, as a community, have 
to rely on ourselves to fight for an accurate Census.
    We have already begun to combat this sabotage and ensure 
that every person in this country is counted next year, 
especially for New York.
    Congress, of course, also has a responsibility to protect 
the Census. So in January I introduced H.R. 732, the 2020 
Census Idea Act, which would protect the integrity of the 
Census by prohibiting any question that hasn't been thoroughly 
tested and researched for a period of three years prior to the 
Census day, which is required by law and laid out already in 
the Administrative Procedures Act.
    Passing this legislation would remove the citizenship 
question from the Census once and for all and block future 
attempts to illegitimately undermine the count.
    We are fighting against a coordinated effort to rig our 
democracy for the next decade. The numbers that come in on this 
count will be the numbers that we will use for everything for 
the next 10 years.
    So the real work in preventing that unthinkable outcome 
will be done at the community level by our dedicated witnesses 
here today.
    I particularly want to thank the Mayor and the Governor and 
the New York state legislature for setting aside a combined 
allotment of $46 million to support community-based Census 
outreach.
    All experts say this is one of the best ways to address an 
undercount or to prevent one.
    I look forward to hearing from all of our witnesses and my 
colleagues in government and representatives of government and 
education and the city about how we can safeguard our Census 
and ensure an accurate count.
    And I yield back and, again, Jamie, I am deeply, deeply 
grateful for your bringing a subcommittee to our--my district. 
I am very honored to be able to do this and it is only because 
of you. So thank you.
    Mr. Raskin. Mrs. Maloney, thank you so much for your 
wonderful opening statement and for blowing the whistle on 
efforts to undermine the integrity and accuracy of the Census 
count in 2020 and we thank you for your hospitality in bringing 
us here.
    Your neighbor is here, Congresswoman Alexandria Ocasio-
Cortez, who represents the 12th District--is that right?
    Ms. Ocasio-Cortez. Fourteenth.
    Mr. Raskin. The 14th. You are the 12th.
    Ms. Ocasio-Cortez. She is the--right.
    Mr. Raskin. You are the 14th District and we are so 
delighted to have you here as the representative of the 
neighboring district and also as the vice chair of the 
committee.
    I yield to you.
    Ms. Ocasio-Cortez. Thank you. Thank you so much, Chairman 
Raskin. Thank you for bringing a congressional hearing outside 
of the actual halls of Congress and into the communities that 
we seek to serve.
    I think it is a--one of those routine practices that we do 
that we don't appreciate how radical it actually is, and I am 
grateful for it and grateful to have a hearing on an issue that 
is going to impact our community, that is going to impact New 
York City, that is going to impact the entirety of the United 
States.
    And, you know, I would like to thank my colleague, 
Congresswoman Maloney, for leading on this issue for so very 
long, and my colleague, Congressman Meeks, for joining us today 
to amplify the importance of this issue.
    I think sometimes speaking of radicalism we don't fully 
appreciate how radical our Founding Fathers were, and although 
we had incorporated gross injustices in the original founding 
that you alluded to in the three-fifths compromise, but I think 
that the idea, the notion, that every single person who rests, 
who has their feet on the ground of the United States, in the 
land of the United States of America is to be counted, and that 
is written into our Constitution.
    Rich or poor, documented or undocumented, land owning or 
not, whether you have been convicted of a crime, whether you 
have food on your table, no matter who you are you count and 
you should be counted in the United States of America.
    And it is an incredibly radical principle and we correct 
for it and we continue to make our efforts to correct for the 
original injustices to meet that original ideal at the same 
time.
    And I think that what the Census is about is really about 
choosing to count everybody. But it is important, and I think 
what this hearing is about, is how we administer the Census 
determines who gets counted.
    Everyone is supposed to be counted. But not everyone does 
get counted, and that leads to certain communities having their 
schools under funded, having their infrastructure underfunded, 
and ensuring that some communities don't get also the health 
care that they need.
    So we need to make sure that this hearing is not just about 
next year's Census but also the Censuses to come, and I think 
there are some core questions that we have.
    How we make an effort and how we organize to make sure that 
immigrant communities are counted, that low-income communities 
are counted, and also how incarcerated communities are counted 
as well can also contribute to compounding injustices.
    So I am greatly looking forward to our hearing. I am 
greatly looking forward to hearing from our expert witnesses 
and also from our community to see how we can be a more perfect 
union, particularly in the administration of our Census.
    Thank you very much.
    Mr. Raskin. Thank you for your wonderful opening statement, 
and now, Mr. Meeks, we have been delighted to waive you on to 
the subcommittee for the purposes of participating in today's 
hearing.
    I congratulate you on your--I understand you have ascended 
to the county chairmanship. Is that right?
    Mr. Meeks. Yes.
    Mr. Raskin. According to Mrs. Maloney. So congratulations 
on that. Thank you for being such a great leader for the people 
of New York and in Congress.
    I yield to you now.
    Mr. Meeks. Thank you, Mr. Chairman, and thank you for your 
focus, your dedication, your consistency, your tenacity to try 
to make sure that this issue is raised all across the United 
States of America.
    It is tremendously important, and I am delighted to join 
both of my colleagues, Carolyn Maloney and Alexandria Cortez-
Ocasio--Ocasio-Cortez--because of their advocacy.
    Carolyn has been doing it for a long period of time. 
Carolyn has inspired us to make sure that we are staying 
focused on issues that are of prime importance to our city, 
state, and nation, and I want to thank you for your consistency 
here.
    And Alexandria has really stepped up to the plate from the 
very beginning, from day one that she walked into the U.S. 
House of Representatives, bringing issues and talking truth to 
power, stirring things up, and making a difference and staying 
focused on what is important to her, which is what being an 
elected official is all about--being true to thyself.
    And so I thank you for the energy and the education that 
you are bringing forth in Washington, DC.
    I am going to be very brief, because--and the reason why I 
wanted to make sure that I was here today is probably the most 
important time in the history of the United States of America 
since the passing of the Voting Rights Act and the Civil Rights 
Act of 1963, 1964, 1965.
    That is what is at stake here. And given the gravity of the 
scenario, because we know that Wilbur Ross is looking and 
straining to find a reason to add this statement about 
citizenship really has no merit.
    Justice Kagan said you cannot read the evidence without 
coming to the conclusion that Secretary Ross was shopping for a 
need of the question, so that is not even an issue.
    But I have deep concerns that, because it probably will end 
up in the Supreme Court of the United States. Our history has 
shown that sometimes you can depend upon the Supreme Court and 
sometimes you can't.
    People forget. If you take the history particularly in 
relationship to African Americans, it was Supreme Court 
decisions that caused us to have segregation and Jim Crowism 
for almost a century. Made it legal, and there was voices that 
were silent at the time.
    So we should be wide awake today because when you look at 
the hijacked Supreme Court, and I say it is hijacked because 
remember there was a justice that was held and prevented from 
taking the bench for over a year----
    Mr. Raskin. That is my constituent, Mr. Meeks----
    [Laughter.]
    Mr. Meeks. That is right. So we can't forget what we are 
dealing with here. And so I think that we go and start from the 
bases and the presumption that can be rebutted, but I go from 
the presumption that the Supreme Court is not going to rule the 
way that I want them to rule.
    So, therefore, the power really rests with the people. It 
is us that have to get into the streets and make sure, 
irrespective of what they are trying to do, we are going to 
make sure that everybody is counted.
    And that is why I am delighted to have these witnesses, and 
I give a special shout out to Melva Miller, who comes from the 
5th congressional District. But it is every one of us.
    If there is anything that is more--there should not be one 
other thing that is more uniting to those of us in New York 
than being sure that everybody is counted in New York.
    And this is true if you are a New Yorker and a Republican 
because this will affect your constituents. It will affect 
Republicans and Democrats and independents. It will affect both 
business and labor.
    It will affect the rich and the poor. It will affect black, 
white, Asian, Hispanic. It will affect every human being in our 
city. It should unite us so that we are focused to saying no 
matter what you do, Mr. President--no matter what you do, 
Supreme Court, we are going to come together to make sure that 
justice and liberty continues in our land because we are going 
to knock on every door with people and get everybody counted.
    So I close just saying by this--by saying this. You know, 
when I was growing up there was a group that always talked 
about power to the people.
    The power does rest with the people, and we are going to 
show--that is what our mission should be--everybody in this 
room, everybody that is listening to our voice, everybody that 
is watching television, everybody in this city and in this 
borough--that the people ultimately have the power and we will 
show that power by making sure that everyone is counted even 
though they are trying to stack the decks against us.
    Let us get out there and win. I look forward to hearing 
from our witnesses, and I yield back.
    Mr. Raskin. Mr. Meeks, thank you very much for your opening 
statement. And just before I introduce our distinguished first 
panel here, I want to make just a couple remarks.
    One is that the House of Representatives is involved in 
litigation relating to the citizenship question and so we don't 
want to do anything to impair the progress of that case. So, 
you know, we have made our opening statements but we are going 
to try to veer away from the specifics of the case and talk 
generally about the Census. You can talk about the citizenship 
question if you want to.
    But we are not going to talk about the specific state of 
the litigation, which our lawyers have asked us not to do.
    The second point I want to make, picking up on something 
Mr. Meeks just said, is that this is a--not a partisan issue. 
It is transpartisan or nonpartisan or multipartisan. It affects 
people not on a partisan basis.
    It affects people on a geographic basis, because if there 
is an undercount in our community, if there is an undercount in 
your state, you are hurt regardless of what your partisan 
affiliation is.
    And, finally, I just want to say, picking up on something I 
think that all of my colleagues have said, that this is the 
Census where it is not going to be enough, if ever it was, but 
certainly it is not going to be enough to rely on the Federal 
Government. We are going to need every level of government 
involved.
    And just like we encourage people to go out and register to 
vote and just like we tell people to go participate to vote, we 
got to tell people to go participate in the Census and to make 
sure that they get counted.
    Okay. So who is with us today? We have got the pivotal 
actors in New York. All of my colleagues seem to know everybody 
who is here. I haven't met anybody yet.
    But I am impressed by everybody's CV. So I am going to just 
read through very quickly who they are. Their bios are 
available for anybody here or the press who wants to see them.
    And we will go in this order. First, it will be Gail 
Mellow, who is the aforementioned president of LaGuardia 
Community College; Carlos Menchaca, council member from New 
York City Council. Am I pronouncing that correctly?
    Mr. Menchaca. Yes.
    Mr. Raskin. Julie Menin is the Census Director for the 
city, and thank you for joining us. Joseph Salvo is the 
Director of the Population Division for the New York City 
Department of City Planning. He is the Chief Demographer for 
the city of New York.
    Melva Miller is the executive vice president of the 
Association for a Better New York and Steven Choi is the 
executive director of the New York Immigration Coalition.
    Please welcome all of them, if you would, for participating 
today.
    [Applause.]
    Mr. Raskin. We have a tiny little timer in front, which 
is--we may have brought from Washington with us.
    [Laughter.]
    Mr. Raskin. That is--that is--it tells you you have got 
five minutes and it goes off, and just like we get cutoff at 
five minutes, you guys have the privilege of being cutoff at 
five minutes today.
    So, Ms. Mellow, we begin with you.

   STATEMENT OF GAIL MELLOW, PRESIDENT, LAGUARDIA COMMUNITY 
                            COLLEGE

    Ms. Mellow. Well, it is such a pleasure and an honor to 
have Members of Congress here at LaGuardia Community College. 
On behalf of our over 50,000 students, faculty, and staff I 
want to welcome you.
    We are honored to host you and I especially have to thank 
our amazing fantastic representative, Congresswoman Carolyn 
Maloney, and our newer--newest Congresswoman, Congresswoman 
Ocasio-Cortez, and our county leader, Congressman Gregory 
Meeks, who you just were here recently.
    So it is great to hold this meeting at LaGuardia Community. 
It is interesting and appropriate because of what is unique and 
gorgeous about America is here at our community college and at 
any community college in the country.
    As a community of students and scholars, we really live up 
to our motto, which is "dare to do more", and because we are 
located in Queens I always say we're lucky, not smart--that we 
have the most, arguably--the most diverse community college in 
the country. Students from over 160 countries; they speak more 
than 96 different languages.
    When you enter our classrooms you will talk to people from 
Ecuador and Colombia and China and Bangladesh, and from these 
other foreign sort of states--Staten Island, the Bronx, 
Buffalo--those are all here.
    [Laughter.]
    Ms. Mellow. It is unprecedented in the history of the world 
to see this kind of collection of humanity--thank you--this 
collection of humanity at a single college, and what happens is 
it fuels us.
    It fuels the creative entrepreneurial aspect of everyone 
who is here and community college students go on to be nurses 
and teachers and accountants and small business owners as well 
as medical doctors and cybersecurity professionals.
    Our work here really provides America what it needs to grow 
the next generation of employees and informed citizens of a 
democracy.
    So I speak only from the perspective of a community college 
president, not an expert on the Census. But I have three 
recommendations for your consideration.
    One, and first, is do no harm. The Census has to achieve 
its primary objective of obtaining an accurate count of all 
people living for all the ways you have just spoken about.
    It is a snapshot in time. But we have to ensure that we do 
not adopt approaches that will undermine our ability to gain an 
accurate account.
    It has to be carefully crafted and tested and disseminated 
in a way that reassures Census takers as well as communities 
like my community of students who have historically come from 
under represented communities that it is a good thing to fill 
out the Census and that it is something we want to do. It is a 
privilege to do as people living in America.
    So making a priority of an accurate and comprehensive count 
has got to be what we dedicate ourselves to and what I want to 
personally dedicate myself to as president of this college.
    The second is to really--you have to empower communities. 
We know that access to information and the willingness to use 
that information to complete government forms is not equal 
across all communities and we can all imagine many groups--
rural residents, homeless, recent immigrants--who might be 
hesitant at filling out a government form.
    Yet, government resources have been, in New York City, I 
think, have to continue to be mobilized so that we have that 
comprehensive and accurate count.
    And therefore, you must know your community partners. You 
must engage deeply with the community and be able to include 
those community partners so that the messengers about "this is 
a good thing to do" are really connected.
    And the last thing, and you will see a bias here, is that 
if you tap community colleges you will get those things. You 
will get them across the country. You will get them here in 
Queens.
    Our students are ready and willing and actually often under 
employed and therefore able to really help create an accurate 
Census. They are individuals who speak the languages across 
this great borough.
    They understand and live in these communities and they 
understand the religious institutions, the human services, the 
housing organizations, the libraries.
    They are throughout this community and what can happen with 
the Census, particularly nationally, if we partner with 
community colleges, which are--there is one in every 
congressional district in this country and they educate most, 
more than half of all students in America.
    You will be able to create an accurate Census. So use us.
    Thank you very much for allowing my testimony.
    Mr. Raskin. Thank you very much.
    Councilmember Menchaca, you are recognized for five 
minutes.

  STATEMENT OF CARLOS MENCHACA, COUNCIL MEMBER, NEW YORK CITY 
                            COUNCIL

    Mr. Menchaca. Thank you so much, and
    [Speaking foreign language.] everyone. My name is Carlos 
Menchaca and I am the immigration chair and also come here not 
just as a city council member representing District 38 in 
Brooklyn but also as the Co-Chair on the Council's 2020 Census 
Task Force.
    And I want to thank Chair Raskin and the rest of the 
subcommittee for being here today to continue this very 
important discussion. We need a well-funded and well-executed 
Federal Census operation free from political interference. This 
is vital.
    Now, so much is at stake here. The Census determines how 
the Federal Government allocates more than $700 billion for 
vital programs like Medicaid, Section 8, SNAP, Title I, 
education grants, and more.
    In Fiscal Year 2016, New York State received about $73 
billion of that money. New York City's $90.6 billion Fiscal 
Year 2019 budget included about $8.2 billion in Federal funds.
    To give just one example of the local impact right here in 
Queens, there were 297,159 SNAP beneficiaries whose combined 
benefits totaled $518.7 million. That is half of a billion 
dollars coming in one borough in New York City in 2018, just 
for SNAP benefits alone.
    The Census also determines political representation and New 
York is at risk of losing up to two congressional seats. The 
White House is no friend and the administration--Federal 
administration is no friend to New York and we need 
congressional delegation--like folks like you who are fighting 
every day for us up in--or down in Washington.
    New York City faces challenges in getting the full count 
out and that is what I am here to talk a little bit about. The 
city has high concentrations of historically hard-to-count 
populations, including people of color, immigrants, renters, 
and people with limited English proficiency.
    More than half of the Bronx and Brooklyn and Queens 
residents live in so-called hard-to-count neighborhoods where 
the self-response rate was below 73 percent in the last Census.
    Numerous neighborhoods in Manhattan and Staten Island face 
challenges as well. In 2000 and 2010 Censuses, the reports--the 
response rates in New York City were well below the national 
response rates of 67 and 74 percent, respectively.
    In 2010, then Mayor Bloomberg's administration estimated 
that we suffered an undercount of one to 2.6 percent of the 
population, or up to 225,000 people.
    The city is home to 3.1 million immigrants. That is nearly 
40 percent of the population of the city and that is 44 percent 
of the work force. The potential inclusion of the citizenship 
question, and you know and we all have to say it every time we 
get the opportunity, is a direct attack on the city and what we 
believe in.
    A resulting undercount would run contrary to the Census 
constitutional mandate, and you have all spoken very eloquently 
about that.
    And then, finally, the Census is bringing an online 
component, not just online but less resources to get the word 
out. For the first time this poses a unique challenge as 
residents of Queens and Brooklyn and the Bronx have less 
internet access than the statewide average.
    And these are the things that we are thinking and posing as 
we think about. While the City Council here in New York is 
committed to ensuring that we get a complete count, our Census 
Task Force is mobilizing councilmembers to work exclusively 
with their CBOs in their neighborhoods that they know and trust 
to get the word out to get these undercounted populations 
connected, and we are partnering with the mayoral agencies and 
the Federal Census Bureau and the Census 2020 Counts Coalition 
and the Association for a Better New York and the Ford 
Foundation and so many others to get this right.
    The Census is also a major job opportunity and that is what 
a lot of the council members are thinking about--how do we get 
our people in our neighborhoods hired.
    Well, we need to make sure that the Census enumerators go 
to New Yorkers in our neighborhoods to reflect the communities 
that they want to get counted. That requires us to have multi-
language multilingual people at the doors talking to our New 
Yorkers.
    With these jobs we are calling on the Federal Government to 
allow noncitizens to be eligible for these jobs. And so I know 
you have all called for it but we need to ensure that we can 
get that okay.
    The Bush and the Obama Administrations both did this in 
2000 and 2010. We deserve that as well.
    Now, the Census faces grave challenges and I am not sure 
yet that we are ready as a city. I am not. When you look at 
$150 million that was put in in California and we have just--we 
are still negotiating money right now, it just begs us to think 
on how we can look together to join forces to bring more money.
    And we are in the middle of a congressional--council 
negotiation. I ask that you join us in this effort to bring 
more money. Twenty-six million is not enough that the city is 
putting in right now.
    Thank you so much.
    Mr. Raskin. Thank you very much.
    We are going to turn now to Julie Menin, and let me just 
remind all the witnesses please speak directly in your 
microphone because we are live casting this so everybody across 
the country can hear from you.
    So please lean in, Ms. Menin, and five minutes is yours.

  STATEMENT OF JULIE MENIN, CENSUS DIRECTOR, CITY OF NEW YORK

    Ms. Menin. Thank you so much, Chairman Raskin, and I also 
want to thank members of the committee, Congresswomen Maloney, 
Ocasio-Cortez, and Congress Member Meeks.
    I think we can all agree that the Census is among the most 
important issues facing our Nation. So I serve as both the New 
York City Census Director and also as Executive Assistant 
Corporation Counsel at the City Law Department.
    Given that the decennial Census determines so many critical 
matters, from the apportionment of congressional seats to how 
Federal funds for vital programs are distributed fairly across 
the country, ensuring a complete and accurate count of who we 
are and where we are is the very foundation of our democracy.
    As such, any threats to this foundation must be taken 
seriously. While we, of course, honor the good work of many of 
the dedicated public servants of the U.S. Census Bureau, who we 
know are committed to ensuring a complete and accurate count, 
we also know that the integrity of such a count is under threat 
as a result of the White House and Secretary Ross's flagrant 
attempt to frighten immigrant communities into not 
participating in the Census with the potential inclusion of the 
citizenship question.
    The de Blasio administration, along with our many partners 
from advocates to elected officials to community and faith-
based leaders, stands ready to meet this threat head on, which 
is why the Mayor has proposed an investment of an unprecedented 
$26 million in outreach, organizing, and public awareness 
efforts.
    As New Yorkers, we will not be intimidated while performing 
our civic duties and exercising our civil rights. Simply put, 
we will not allow the Trump administration to use its 
constitutional obligation to count us as a tool to harm us.
    To that end, I really want to thank the committee for 
holding this hearing. As members of the subcommittee can 
appreciate, counting all of New York City's 8.5 million 
residents can be an arduous and complex task at best.
    The high concentration of apartment buildings, the 
prevalence of new or transient populations, as well as the rich 
diversity of our population with close to 40 percent of our 
residents being foreign born and more than 200 languages spoken 
all make New York City an incredibly unique place.
    It should, therefore, come as no surprise that the city has 
historically been undercounted relative to the rest of the 
United States.
    In fact, in 2010, the average self-response rate in New 
York City was 61.9 percent while the national average was 76 
percent. Among both native-born African-American and foreign-
born black communities as well as Orthodox Jewish communities 
across, I might add, socioeconomic lines, the self-response 
rates hovered at just 50 percent, demonstrating that there are 
many communities that have not felt empowered to participate in 
this critically important function.
    Children are also frequently undercounted. In fact, 
children under the age of five have the highest net undercount 
rate compared to any other age group.
    Some Census Bureau estimates suggest that as many as 2 
million children in this category or, literally, one out of 
every 10 children under five nationwide were not counted in the 
2010 Census.
    For states like New York, which, according to population 
change estimates, could lose up to two congressional seats 
following the 2020 Census, having a complete and accurate count 
is critical to ensuring that we continue to maintain our fair 
share of political representation at every level of government.
    Emphasizing this message to all New Yorkers is a key part 
of our strategy in engaging New Yorkers to participate. I know 
a lot has been said about the Federal funds that have been 
allocated so I will be very brief on that.
    As Congresswoman Maloney mentioned, $73 billion go directly 
to New York State for everything from public education, public 
housing, senior centers, Medicaid, Head Start.
    So given all that is at stake, we are actively preparing to 
confront the challenges that we face in terms of ensuring a 
complete and accurate count.
    As we all know, the mere specter of the possible inclusion 
of a citizenship question has already begun to cause fear and 
spread misinformation, rattling communities from coast to 
coast.
    Several cities and States including New York City remain a 
plaintiff on the citizenship litigation. The Mayor, our 
administration, and all of our partners stand ready to combat 
the fear and misinformation tied to this question should it be 
included.
    We are also committed to doing all that we can to ensure 
that all New Yorkers participate in the Census despite the 
White House's attempt to sow confusion and fear among 
communities we represent.
    The potential inclusion of the question, however worrisome, 
is just one of several challenges that we face. In a further 
effort to discourage full participation, the Trump 
administration has also significantly underfunded Census 
planning, outreach, and public engagement.
    I want to thank members of the committee who have worked 
very hard to counteract that. Additionally, while we believe 
that the Census being online for the first time presents key 
opportunities in terms of accessibility for many, given that 
approximately one in three households in New York City lacks a 
broadband connection, we are concerned about the ability for 
all households in our city to easily participate in the Census.
    These households frequently appear in low-income areas and 
often overlap with hard-to-count communities. For context, one-
third of our city's population is equivalent to the size of 
Houston.
    One can imagine the severe undercount that could occur 
should these households be expected to fill the Census out 
online when not having internet access.
    We have further concerns pertaining to potentially not 
receiving important information sufficiently in advance from 
the Census Bureau.
    Next March, 80 percent of households will receive a letter 
in the mail from the Bureau directing them to complete the form 
online while the remaining 20 percent will receive the 
traditional paper version.
    At this moment, it is unknown to us which Census tracks in 
New York City will be directed to the online form and which 
will receive the traditional paper form.
    This information is critical for us to know in advance as 
it will help us determine which communities we need to be 
working directly with to ensure that they are participating in 
the Census as easily as possible.
    I see I am out of time so I will stop.
    Mr. Raskin. Well, I am sure we will come to you for 
questions.
    Ms. Menin. Great. Thank you.
    Mr. Raskin. Thank you, Ms. Menin.
    Mr. Salvo, to you for five minutes.

   STATEMENT OF JOSEPH SALVO, CHIEF DEMOGRAPHER, POPULATION 
           DIVISION, NYC DEPARTMENT OF CITY PLANNING

    Mr. Salvo. Good afternoon, Chairman Raskin, members of the 
Subcommittee on Civil Rights and Civil Liberties.
    My name is Joseph Salvo and I am the Chief Demographer for 
New York City on behalf of Mayor Bill de Blasio. I am pleased 
to testify before your subcommittee today to discuss the 
profound impact that the accuracy of the Census counting would 
have on New York City.
    Let me begin by saying self-response is the gold standard 
in the decennial Census. The past has shown us that self-
response is the most accurate and efficient way to collect data 
in the Census and a decrease in self-response gives rise to 
numerous issues regarding Census counts and data quality.
    Therefore, encouraging self-response is the best way to 
ensure an accurate count. When communities fail to self-respond 
they are subject to the Census Bureau's nonresponse, or NRFU, 
followup operations, all of which contain error in various 
forms.
    For example, the Census Bureau imputes characteristics of 
persons who fail to respond or fail to respond even in 
nonresponse followup. In other words, they just fail to 
respond.
    This is what happened in areas of central Brooklyn in 2010 
when the Census Bureau engaged in what is called large-scale 
imputation of data for persons in households. As many as one in 
six persons in Census tracks and communities in and around 
Brownsville, east New York, and Canarsie were imputed, meaning 
that they had--they had to have their data created by a 
statistical algorithm based on the characteristics of their 
neighbors.
    While these statistical algorithms have come a long way, it 
is a maxim in statistical science that populations which fail 
to respond are inherently different from those that do respond, 
leading to errors in the characteristics data and to wholesale 
inaccuracy in population counts.
    I would like to present you with a couple of examples on 
the ground for how the local government, my division, uses 
Census data and talk about what happens if a decennial Census 
fails to produce accurate counts of the population.
    It is important to say at the outset that the Census is 
more than a simple count. It also contains other information 
that allows us to engage, as Congressman Meeks referred to, 
into--engage in intelligent planning.
    Let us begin with the dissemination of Census data to the 
Department of Health and Mental Hygiene, or DOHMH. The data 
forms a basis for their calculation of rates.
    In 2010, problems in NRFU--nonresponse followup--in 
Astoria, in northwest Queens, and in the corridor from Bay 
Ridge to Graves End on the southern perimeter of Brooklyn led 
to an undercount of population, especially among young 
children, making the calculation of rates of disease suspect.
    DOHMH was unable to use the data in many of these 
neighborhoods. We were required to adjust for undercount to 
allow DOHMH to make a proper assessment of public health risks.
    We regularly provide data in consultation to New York City 
Department of Education. The DOE relies on our analysis of 
recent changes in the composition of population in 
neighborhoods to inform decisions on how to change the zones 
around schools.
    Are there new entrants to these neighborhoods? What about 
the characteristics of the population? How are those 
characteristics changing, especially regarding the number of 
children?
    We use data from the ACS, American Community Survey, in 
order to inform their decisions on boundary changes. And then 
our population that is 65 and over, as everyone knows, is 
projected to grow substantially.
    As part of the age-friendly New York initiative, a 
partnership between the city of New York and the New York 
Academy of Medicine, as something that is underway in an effort 
at the neighborhood level to project the population 65 and over 
but in order to create these programs and provide services 
going forward we need to know how many people are likely to be 
in these neighborhoods in the coming years.
    Finally, New York City relies on demographic data from the 
Census and the ACS to make determinations about vulnerable 
populations in coastal flood zones around the city, pre and 
post Sandy.
    Key to this effort are estimates of persons with mobility 
limitations and other disabilities, especially older 
populations requiring special assistance.
    Our teams at the New York City Emergency--at New York City 
Emergency Management evaluate these numbers on a continuous 
basis.
    I believe these examples of how New York City uses Census 
data puts into clear perspective why we cannot afford a failed 
Census, which can happen if the nonresponse followup door opens 
too wide.
    Now, I hope the citizenship question doesn't make it to the 
questionnaire but I believe that a lot of damage has already 
been done. Unfortunately, the Census Bureau may be ill equipped 
to deal with these problems because of cuts in the staff for 
nonresponse followup.
    So this is my fourth decennial Census and I could say 
without hesitation that outreach in the interest of promoting 
self-response has never been more important than it is in the 
2020 Census.
    Motivating all New Yorkers to stand up for who they are and 
to understand at a personal basis what is at stake is the goal 
of the outreach plan.
    I want to thank you for the opportunity today to testify 
and I would be happy to answer any questions.
    Mr. Raskin. All right. Thank you for your excellent 
testimony.
    We come now to you, Ms. Miller, for five minutes.

     STATEMENT OF MELVA MILLER, EXECUTIVE VICE PRESIDENT, 
               ASSOCIATION FOR A BETTER NEW YORK

    Ms. Miller. Thank you.
    Good afternoon, and I would like to thank the committee for 
allowing me to testify today.
    My name is Melva Miller and I am the executive vice 
president at the Association for a Better New York, a business 
and civic organization that for nearly 50 years has advocated 
for the policies and initiatives that make New York City a 
better place to live, work, and play.
    On behalf of our members, I am here to represent our deep 
commitment to obtaining an accurate Census count in 2020.
    Now, as already discussed today, there is a lot at risk. 
Here in New York City, we recognize that the challenges we face 
in 2020 requires a series of coordinated efforts not seen in 
years past--an all hands on deck response.
    To that end, there has been some clear leadership that has 
emerged to ensure the highest possible participation rate and 
that can serve as a model for other cities.
    You have heard about some of these already from City Hall, 
the City Council, our five borough presidents, philanthropy, 
and New York Counts 2020 that you will hear from in a minute, 
and, of course, our New York congressional delegation has been 
with us every step of the way.
    And then there is ABNY, the Association for a Better New 
York. We entered the effort for one reason: to support the work 
that was just mentioned. We are here to achieve three simple 
goals.
    One, maximize the self-response rate in 2020; two, help New 
Yorkers complete the Census form; and three, work to ensure 
that the confidentiality and private protections under Title 13 
while exploring local protections that can augment these 
Federal laws.
    The ABNY Census 2020 work is based on the understanding 
that our role is simply to support and supplement the work that 
is being done by the Census Bureau, the state of New York, the 
city of New York, and the advocacy and organizing work from New 
York Counts 2020 in coordination with all of the Census 2020 
stakeholders.
    We see that there are three unique opportunities for ABNY. 
One, help provide a coordinated Census effort for New York 
City; two, organize, facilitate, and support a Census campaign 
for nontraditional Census actors, and I will talk about that in 
a minute; and three, provide support and resources to 
community-based nonprofit organizations.
    A coordinated Census 2020 effort for New York City is 
essential to maximize resources and assess to the most up-to-
date and accurate information and include activities like 
working together to understand the gaps in resources of the 
effort, working from one Census operational time line to ensure 
that we are hitting important benchmarks and doing the work 
necessary to reach those milestones, making sure that we all 
mobilize our external networks for the cause, and simply 
meeting regularly to share information and best practices.
    The second unique opportunity is maximizing the 
participation of nontraditional sectors like labor, health 
care, and the business community.
    Many segments of the population have been more difficult to 
count including young children, urban areas, immigrants, and 
communities of colors, and these sectors have a unique ability 
to reach these hard-to-count individuals and efficiently 
communicate with those who are hesitant to respond.
    Members of New York's strongest unions represent our most 
vulnerable communities. Businesses interact with these 
populations as employees and customers, and health care 
institutions are located in the communities where we need to 
reach our most vulnerable populations.
    And why should these sectors care? The business sector uses 
Census data to make decisions about what products to make, who 
to make them for, where to make them, and how to sell them.
    These strategic operational decisions are based on the 
highest quality of data and billions of dollars and thousands 
of jobs are at stake.
    Now more than ever businesses must reflect a changing 
America and requires the best possible data to make those 
decisions.
    An inclusive Census count is also important for organized 
labor because historically union membership has been comprised 
of the most marginalized members in our society--the same 
individuals who are at risk of losing funding and political 
power if under counted.
    Labor can help get a complete count in 2020 by leveraging 
with diverse partners and commit to ensuring members and their 
families participate and activate for an accurate Census.
    And how does a fair and accurate Census benefit health care 
sector? Health care providers, health insurance companies, 
government agencies, and beneficiaries need accurate 
information to make decisions regarding health-related products 
and services that they provide and utilize.
    An inaccurate measurement of U.S. population and its 
characteristics could deprive the health care sector of vital 
resources needed to ensure in its meeting each community's 
needs.
    In addition, hospitals and medical facilities that service 
our most vulnerable populations rely on hundreds of billions of 
dollars in Federal funding.
    I see that I am out of time.
    Mr. Raskin. Thank you very much and for your self-
discipline. I appreciate it.
    [Laughter.]
    Mr. Raskin. And Mr. Choi, you are up for five minutes.

    STATEMENT OF STEVEN CHOI, EXECUTIVE DIRECTOR, NEW YORK 
                     IMMIGRATION COALITION

    Mr. Choi. Good afternoon. Thank you, Chairman Raskin and 
the members of the committee, for holding this hearing. Thank 
you to Congresswoman Maloney and also to Congress Members 
Ocasio-Cortez and Meeks for your leadership around the Census.
    My name is Steven Choi. I am the Executive Director of the 
New York Immigration Coalition, which serves as the convener 
for New York Counts 2020.
    New York Counts 2020 is a statewide coalition made up of 
more than 200 organizations across New York state, and I want 
to note that our membership doesn't just include immigrant 
communities.
    It also includes African-American communities, rural 
communities, Orthodox Jewish communities, and more, and we are 
proud to call ABNY and the organizations testifying on the 
second panel as our members.
    My phone went blank. Okay.
    The reason we have come together as a coalition is because 
we recognize the tremendous stakes for Census 2020. This 
includes a huge amount of funding and resources and, you know, 
you all and our panelists have talked about the $73 billion in 
critical and vital programs.
    And so the consequences for New York City and New York 
state of a lesser Census count would be simply catastrophic.
    New York, as a state, will be sicker, hungrier, less well 
educated, and less successful as a result. But a more important 
consequence, in our minds, is political power and 
representation, particularly for communities of color and 
immigrant communities who have historically been undercounted 
and are at risk of being undercounted again.
    This is a particularly acute problem for New York City with 
huge communities of color, immigrants, renters, and others. New 
York City has been undercounted before. We have lost 
congressional seats and we have lost power as a result.
    So given what is at stake, how can we assure there is a 
full count of New Yorkers for Census 2020?
    First, we must build trust to ensure that the climate of 
fear and intimidation does not spoil the Census effort before 
it starts. This is an especially hard task, given the rhetoric 
and actions of the Trump administration.
    The sad reality is that the administration has no 
credibility within many communities in this country and that 
goes for New York as well. And so there are real concerns about 
this administration's motives and what they plan to do.
    So we ask all of you, our congressional representatives, to 
push and advocate the Census Bureau to do a couple things. 
Explain what information is being shared and what the Bureau 
plans to do with it, commit that any data received will not be 
shared with ICE and DHS and not be used for immigration 
enforcement, and make public a comprehensive plan for how they 
are going to safeguard all Census information.
    Second, funding will be critical to overcome these 
monumental obstacles. On a Federal level, we need a fully 
funded Census Bureau with $8.45 billion to fund 2020 Census 
operations.
    At the state level, New York Counts 2020 has advocated for 
the state to invest $40 million for community-based 
organizations--CBOs--for Census outreach and we were 
disappointed that the state only allocated $20 million with no 
amount allocated for CBOs.
    We were further disappointed that now, after two months 
after the budget was finalized, Governor Cuomo has released no 
details about where and how the $20 million will be spent.
    That confusion leaves each level of government, including 
the city, at a disadvantage when trying to plan out their scope 
of the work through the next year.
    The city of New York has taken Census 2020 more seriously. 
The Mayor has already committed to investing $26 million. That 
is a significant first step and, notably, much more than what 
the Governor has committed for all of the state.
    But it looks like the city is indicating that only $8 
million has been set aside for CBOs. That is not nearly enough 
to achieve a fair and accurate count.
    The City Council has proposed $40 million with $20 million 
for CBOs. That is a much stronger place to be.
    Finally, it is vital that CBOs and grassroots community 
organizations are at the forefront of this fight. CBOs are 
best--in the best position to reach hard-to-count communities. 
They are already on the ground.
    They have the language and the cultural diversity needed to 
reach our diverse community and they have the earned trust that 
comes with years and decades of working within communities. But 
they need funding to do that work.
    We at New York Counts 2020 are trying our best to organize 
these CBOs. But it is vital that as much of the funding as 
possible go toward CBOs. I cannot stress this enough.
    Census 2020 is going to be a monumental undertaking and 
there are no do-overs. If we make mistakes we will have to live 
with them for the next 10 years. We have to get this right.
    New York Counts 2020 remains dedicated to achieving a fair 
and accurate count for every New Yorker.
    Thank you.
    Mr. Raskin. Mr. Choi, thank you very much.
    We now will move to our questions. There will be 20 minutes 
of questions. Each of us will have five minutes, and Mrs. 
Maloney, I am going to start with you.
    Mrs. Maloney. First of all, a very big thank you again, 
Chairman, and I would like to start with Ms. Menin, and one of 
the biggest threats to the count is the inclusion of the 
citizenship question , which we have all discussed.
    And a recent Harvard study found that the question could 
lead to 5 million Hispanics missing from the count, and that is 
a larger population than 30 of our states.
    So this underscores the need for a really robust outreach 
that reassures New Yorkers of the safety of their information 
so that they will willingly respond and be part of it.
    So what efforts is the city taking to reassure people of 
their Title 13 protections, protections that prohibit the 
Census Bureau from sharing identifiable information with law 
enforcement?
    And also, do you have any sense--Mr. Choi talked about it--
do you have any sense of where the $20 million from the state 
is going to be going in the city or have they given you any 
indication of how much of the $20 million will go to trying to 
get an accurate count in the city?
    Thank you.
    Ms. Menin. Okay. Sure. So I am happy to answer both of 
those questions. In terms of the state funding, the state has 
not given the city information as to where the funding will go, 
how much will go to the city of New York, and what exactly the 
funding will be utilized for.
    We are in constant conversations with the state. We look 
forward very much to partnering with them and we fully expect 
them to be sharing that information with us shortly.
    With regard to Title 13, it is imperative that we get the 
message out about Title 13. Title 13, obviously, imposes up to 
five-year prison sentence, up to $250,000 fine on any Federal 
employee who disseminates that data and, as you know, that is a 
lifetime ban.
    We have to make sure people understand that and people feel 
that their information is safe. Title 13 Census enactment has 
never been broken. So we--and I will put on my hat at the City 
Law Department--we have done tremendous legal research around 
that.
    It has not been broken since its enactment. We have to make 
sure that people understand that and feel that their 
information is safe. And so we will be really focused on 
messaging that out and also working very closely with community 
organizations on that.
    Mrs. Maloney. I would like to ask Mr. Choi and Mr. 
Menchaca--the Census will see almost 1,000 less field staff 
than were seen in 2010, and how is the city working to 
supplement the enumeration efforts with less personnel in the 
field?
    And all of us talk about the digital and the internet. Most 
of my constituents don't use the digital and they don't use the 
internet, and I am wondering how this coordinates and are we 
going to really get everybody counted.
    Mr. Choi. Thank you, Congresswoman.
    I would just first say that the Census Bureau is looking at 
slashing their enumerator work force by 40 percent. It was 
never enough to begin with.
    And so what that means is they are going to have to be an 
incredibly coordinated effort, working with the city 
government, the Council, business, labor, community-based 
organizations all at the table.
    I do think that there are opportunities as well, given that 
this is a digital Census. But, really, what we see is that 
there are a couple of key opportunities.
    No. 1, how can we make sure that place-based institutions 
everywhere, at LaGuardia Community College and elsewhere, have 
a Census kiosk where folks can fill it out.
    No. 2, we are going to need a grassroots army of canvassers 
going door to door, potentially armed with tools that they 
didn't have 10 years ago. That is absolutely going to have to 
be key, given the kind of trust that community-based 
organizations and grassroots groups have built.
    And then third, we are going to have to think about how to 
use technology, how we are going to use peer-to-peer texting, 
social media, and more efforts in a way that simply did not 
exist in 2020. It is going to require that level of 
coordination and investment.
    Mr. Menchaca. And in the last few seconds what I will say 
is what we are focused on right now in budget negotiations is 
to get that $40 million--$20 million to CBOs as the reasons 
explained by Mr. Choi.
    I think the other things that we are doing is trying to 
figure out how we get more grassroots organizing happening in 
our community boards. We are asking our community boards to 
create subcommittees within the community boards to do Census 
outreach and in Sunset Park we have a really robust example of 
that.
    And so that is an idea that we want to get out. But at the 
end of the day we can't allow for us to just ask our CBOs to 
take on this responsibility on top of everything that they are 
doing right now.
    If they are working with these hard-to-count populations 
they are already overtaxed and so this is why we are pushing 
for CBO infrastructure.
    Mrs. Maloney. Well, my time has expired. But I just want to 
say that it is clear in the law that Congress can dictate to 
the Census Bureau of how it is supposed to be run and I 
certainly will take this back.
    We have had five hearings that I have organized and all of 
the testimony has said the best outreach is through community-
based organizations. Yet, they are slashing specifically that 
area that contributes the most.
    And so I will take that back and legislate and have 
meetings with the Census Bureau to try to get it directed back 
to CBOs.
    Thank you.
    Mr. Raskin. Thank you.
    Congresswoman Ocasio-Cortez?
    Ms. Ocasio-Cortez. Thank you.
    Just so we can kind of really clarify for the public, Ms. 
Menin, will a Census undercount reduce or threaten funding for 
our public schools?
    Ms. Menin. Yes, absolutely.
    Ms. Ocasio-Cortez. Will it threaten funding for our 
infrastructure?
    Ms. Menin. Yes.
    Ms. Ocasio-Cortez. Will it threaten funding for Medicare 
and Medicaid?
    Ms. Menin. Yes.
    Ms. Ocasio-Cortez. SNAP, WIC, EBT?
    Ms. Menin. Yes.
    Ms. Ocasio-Cortez. So this--so an undercount in the Census 
at its core equates to an existential crisis for almost all of 
our public Federal systems. Is that correct?
    Ms. Menin. That is absolutely correct.
    Ms. Ocasio-Cortez. And do you believe that the 
administration is trying to undercount certain communities for 
the 2020 Census?
    Ms. Menin. We do. We believe that the inclusion of the 
citizenship question is a clear attempt to intimidate both 
immigrant communities and, quite frankly, communities of color 
and that is why the city of New York is a plaintiff, along with 
the attorney general's office and many other cities and states 
and advocates groups on the lawsuit.
    Ms. Ocasio-Cortez. So we have on the record that the--that 
the Census is under attack and that it is a targeted attack of 
specific communities by the Federal administration.
    And, you know, why we are here today is to figure out what 
we do in the midst of that attack--how do we defend ourselves? 
What programs will the city provide for people who do not have 
access to the internet to ensure that they are counted?
    Ms. Menin. So one of the things we are going to do is we 
are going to set up pop-up centers all throughout the city 
housed in community organizations, housed in the 219 public 
library branches throughout the city, housed in places of 
worship.
    We really want New Yorkers to go into a trusted place to 
fill out the Census. And so we are going to set up these pop-up 
centers with internet access.
    Ms. Ocasio-Cortez. And will people or institutions be able 
to request paper ballots if--I mean, sorry--paper 
questionnaires if they want or need them?
    Ms. Menin. So this is an outstanding question that we have 
not, to be very clear, had clarity on. We know that the Federal 
Census Bureau will send 80 percent of New Yorkers a form that 
will have a computer code where you can go and fill it out 
using that code. If you lose a code, you could go into the 
public library--one of the pop-up centers.
    What is not entirely clear, and we have received somewhat 
differing answers on this issue, is the 20 percent of New 
Yorkers that receive the paper ballot, if someone on the first 
attempt says, I don't want to fill this out online--I want a 
paper ballot immediately, what happens to that person, because 
we believe that people should be able to get the paper ballot 
if they want to.
    Ms. Ocasio-Cortez. Mm-hmm. And from--you know, this is our 
third hearing in--you know, in relation to the Census. The 
first time that this really came up was with the GAO, whose job 
is to essentially be an agency that is a government watchdog.
    And they brought this up initially. They were the ones who 
set up the first red alerts back in 2017 saying, we are not on 
pace to administer the Census in a full, whole, and responsible 
way.
    Then we brought in Secretary Ross on the Census question 
and the citizenship question in particular, and we did not get 
a straight answer as to why or how the inclusion of the 
citizenship question was appropriate, particularly because it 
takes about five years typically for one of these questions to 
come in.
    Ms. Miller, I have one question about incarcerated 
populations. Currently, individuals who are incarcerated are 
counted at the place they are incarcerated, correct?
    Ms. Miller. Correct.
    Ms. Ocasio-Cortez. So I--my congressional district includes 
Rikers Island, for example. All of the individuals held in 
Rikers Island, many held without being found guilty of a crime, 
are counted at Rikers and not counted in the communities that 
they actually live in. Is that correct?
    Ms. Miller. That is correct.
    Ms. Ocasio-Cortez. How does that impact the amount of 
resources that are available to communities and, A, do you 
believe that that can make certain aspects of inequality worse, 
and B, if so, how?
    Ms. Miller. Sure. So, I mean, there is differences between 
the city jails and the Federal penitentiaries. I know that 
there has been some legislation that was passed in prior Census 
that if there is a record of address of the inmate prior to 
going in then that person could be counted for where they live.
    But, unfortunately, that information isn't always 
available. We do feel that this will make significant 
undercount in certain communities for those individuals who are 
incarcerated, and as stated today, what is at risk between 
representation and as well as funding, there are many 
communities, obviously, of color will be disproportionately 
disadvantaged by incarcerated populations being counted in the 
jails and prisons where they are.
    Ms. Ocasio-Cortez. Thank you. I yield my time to the chair.
    Mr. Raskin. Thank you, and Mr. Meeks, you are up for five.
    Mr. Meeks. Thank you, Mr. Chair.
    You know, in the 2010 Census, New York City's enumerated 
population was over 8.1 million people and actually that was 
the largest enumerated Census population in our history.
    However, the borough of Queens had the lowest growth in the 
city with its population virtually unchanged between 2000 and 
2010.
    Now, the Department of City Planning attributed this low 
growth to shortfalls in the Census enumeration process. So my 
first question is to Ms. Miller and Mr. Salvo.
    Can you detail some of the characteristics of Queens that 
make it much more challenging for enumerators and what we 
should be doing to improve that this time?
    Mr. Salvo. Two major points. One is Queens has a very large 
number of housing units that have been subdivided. That 
subdivision does not generally--will not, in many cases, yield 
exact apartment numbers. Those apartment numbers don't exist in 
many of those basements.
    At the Department of City Planning, we work very hard to 
make sure those apartments get on the address list. This time 
around, we added 122,000 apartments to the Census Bureau's 
address list citywide.
    Those apartments, though, remember I mentioned earlier that 
when people do not self-respond, the Census Bureau has to go 
out and has to talk to people in those apartments.
    So the Census Bureau will rely on what we call proxy 
respondents because they can't find anybody in those 
apartments. People don't answer the door.
    So they ask the landlord how many people live in that 
basement and the landlord says, what basement.
    [Laughter.]
    Mr. Salvo. Then they ask a neighbor how many people live in 
that basement. The neighbor may or may not know. It leads to 
inaccuracy.
    But in 2010, what happened in northwest Queens was that 
many of the Census workers went out and essentially said, no, 
this apartment is vacant.
    So we had extraordinary increases in the number of vacant 
housing units in Astoria and parts of Jackson Heights, which 
anyone--I work in the planning department--we would know if 
Jackson Heights or Astoria was experiencing abandonment.
    And that is the increase that was occurring would imply 
that obviously was incorrect. So Queens paid a heavy price. 
Easily, 20,000 or 30,000 people were not enumerated in that--in 
that part of the city.
    Ms. Miller. And just to add also, too, one of the lowest 
undercounted communities was southeast Queens, your 
congressional district, and as we know, there were--there are a 
lot of single family houses, and to Joe Salvo's point, that 
many of those houses are subdivided and have illegal basement 
apartments and have been difficult to count. We believe that 
that is one of the reasons Queens', as a whole, numbers fell 
because of southeast Queens.
    Another reason is, as you know, Queens is probably the most 
diverse county in the world. I am going to claim it--the world. 
And, you know, in order to do competent outreach you need 
community-based organizations that have the language 
competency, the cultural competency to do the outreach and 
speak to individuals on a level that connects to them.
    And in 2010, where we had some communities that did better 
than others, I think there was a real deficit in support to 
community-based organizations to do the type of outreach that 
will warrant an accurate count of the borough Queens.
    Mr. Meeks. Thank you. Now, let me ask the councilman. You 
know, I feel that we need a movement. We need a movement. And 
so in spending money and trying to figure it out, you know, I 
can recall that when we wanted everybody to use seatbelts we 
had an advertisement in every public facility. So if someone 
goes to school, because children help lead their parents. They 
say, ``Dad, Mom, buckle up.''
    Is there a focus we can look at, whether it is high school, 
even if it is elementary schools, that we could put something 
up because this is not political--that every child is told make 
sure your parents is counted--it is important of you, so they 
can go back home? Every building, every--if it is a state 
office or a city office?
    Is there any movement afoot so that we can make sure that 
in every public facility we are talking about the importance of 
people being counted?
    Mr. Menchaca. First of all, I would say amen to that. We do 
need a movement, and we are already looking at how to create 
that movement and that movement really, at the end of the day, 
has to come from the people themselves.
    You are in government. We are both legislators. Government 
cannot be the movement. The movement has to come from the 
people and we ought to resource them adequately, and the plan 
from the city of New York right now is not enough.
    And I hope that you can join us and put pressure. If you 
know--have the mayor's--if you have the mayor's cell phone 
number give him a call and really ask him to rethink how he is 
presenting his operations.
    The budget is a $92 billion budget. We can put more money 
in this.
    Mr. Meeks. Let me just conclude by saying what I am 
pledging to do with my little bit, and I--as the chair of the 
Queens Democratic organization, we are going to treat this like 
it is a campaign and we are going to talk to our Republican, 
Democratic organizations----
    Mr. Menchaca. I have some ideas.
    Mr. Meeks [continuing]. the independent organizations. But 
I will pledge that the Queens Democratic Party is going to 
treat this just like it is a regular election day and like we 
are supporting a candidate, and we are going to be out front 
and I am going to talk to my colleagues throughout the borough. 
But definitely Democrats, Republicans, independents, all of 
us--this should be a political movement.
    Mr. Menchaca. We should all be doing that, and I have some 
ideas and we will talk about that afterwards.
    Mr. Raskin. All right. Thank you, Mr. Meeks.
    Ms. Menin, let me followup on that.
    When I was a kid, I think we used to think that the Census 
was one day. At one moment every--the Census takers would go in 
and see who was where. Is it one day and if it is not, how do 
you tell people even in this room, the most educated people we 
have got, how do you make sure that you get counted?
    Ms. Menin. Yes. I am so glad you are asking that question 
because that is one of the misconceptions. So in 2010 one of 
the reasons we believe that the city had a woefully inadequate 
61.9 percent response rate is because the Federal Census Bureau 
was the one doing the messaging and the messaging was it is in 
the Constitution, it is your civic duty, fill the form out. It 
is the law.
    Well, people didn't pay attention to that. The advertising 
and messaging was never around the funding piece. So to answer 
your question, there is an eight-week self-response window.
    The Federal Census Bureau will send, and I will just talk 
about New York City but it applies across the country--in New 
York City, every New Yorker will receive a piece of mail from 
the Federal Census Bureau that is being sent out on March 12.
    Eighty percent of New Yorkers will have a computer code 
that you can fill it out online. We have reached an agreement 
with the Federal Census Bureau to get real-time data every 
single day during this eight-week self-response period. We are 
going to publish that data on our website by Census Tract.
    So every single Census track in New York City is going to 
know exactly how they did.
    Mr. Raskin. You can have like a Census telethon going on 
each day, too.
    Ms. Menin. Right. So we are going to create a competition 
in New York City. We are not trying to pit neighborhoods 
against neighborhoods. We are trying to beat our 2010 number 
and we are trying to not let what the Trump administration is 
trying to do to us affect our count.
    So that is really what we are going to do and we are going 
to beat our 2010 number. And so our plan is we are going to 
work with every single elected official and community group 
across the city.
    We are going to be in touch with them every single day 
during this eight-week sprint to tell them exactly how their 
neighborhood is doing.
    Mr. Raskin. Well, the people on this panel give me a lot of 
hope and encouragement.
    Mr. Salvo, let me ask you, how many jurisdictions actually 
have a Census Director, a Chief Demographer, all of these 
wonderful positions? I mean, is that a New York thing or is 
that--is that something that we would find across the country?
    Mr. Salvo. There are not many governments that have--states 
have chief demographers and, frequently, localities rely on the 
state demographer. There is something called the State Data 
Center Program the Census Bureau has, and universities pitch 
in.
    But in terms of the kind of structure we have here in New 
York, it is not very common.
    Mr. Raskin. Okay. Is there a national association of state 
and local demographers for----
    Mr. Salvo. Yes. The Population Association of America is 
the professional association for demographers.
    Mr. Raskin. Okay. All right. A high burden of hope is 
placed on that group, I think, to do what you are doing.
    Ms. Miller, let me ask you. People--a lot of people who are 
in America in these wonderfully diverse communities come from 
nations where the populace is afraid of the government, okay?
    So how do we overcome that ingrained fear that people have 
of the government, especially at the time when people are 
growing afraid of our government?
    In other words, how do you deal with that fear question?
    Ms. Miller. Sure. So it is not easy. But we believe 
messaging is the key. What we did at the Association for a 
Better New York is we held 12 focus groups in communities that 
have been identified as hard to count or potentially hard to 
count to really understand what people know about the Census, 
how they feel about the Census, how they feel about the quality 
of life in their communities, all for the purpose of coming up 
with messaging that hits home.
    Like Julie said, it is not just good enough to say it is 
your civic duty. You have to be specific to cultural groups, to 
geographic communities about what underfunded Census funding 
means for your community or your neighborhood.
    So we believe that coming up with micro-targeted messaging 
to specific communities will be the key to helping people 
overcome their fear of government.
    Mr. Raskin. Very good.
    Mr. Choi, let me come to you. People have different 
complaints about what has taken place in the Department of 
Commerce and the Census Bureau.
    You have heard some of it articulated today. You have 
articulated some of it. But how do we articulate a constructive 
critique of what is going on to try to put the Federal 
Government to the task of doing the job they are supposed to do 
at the same time that we don't spread more fear?
    How do we actually promote participation in the Census 
while we are identifying some of the problems that are taking 
place at the national level?
    Mr. Choi. So that is a great question, and what I would say 
is we are faced--because of the actions of the Trump 
administration, we are faced with walking an incredibly fine 
line, which is essentially to say this administration has tried 
to deport you, marginalize you, and otherwise hold you down.
    But you know what? You should work with them on the Census, 
and think about how incredibly difficult that line of messaging 
is going to be.
    I go back to thinking, though, and I think it is critical 
for us to talk about civic empowerment, civic engagement in the 
long run.
    I worked on the Census in 2010 in Flushing, Queens, that 
happens to have a very significant Asian-American community 
that historically have been divided and cut, and that community 
had always been politically disempowered.
    And so what happened, though, in 2010 was we launched an 
all-out effort to make sure that those folks got counted, and 
when they were counted so much so that when Census was followed 
by redistricting, they had to create several Asian-American 
majority districts on the Assembly and the first ever Asian-
American majority state senate district and the first even 
Asian-American plurality congressional district, and that led 
directly--I would say directly to the election of Congresswoman 
Grace Meng.
    So I think that is the promise that we have to engage our 
constituents on.
    Mr. Raskin. It might make more sense not to talk about it 
just as a constitutional duty but as a constitutional right to 
participate.
    Mr. Choi. It makes sense to talk about this as the Census 
is the foundation of empowering our communities politically. If 
you engage in Census you will get more political power.
    You will get representatives that look like you and are 
responsive to your concerns, and I think if we characterize it 
as that, then I think we will have success.
    Mr. Raskin. All right. I have got 30 seconds left. I am 
going to yield it to my friend, AOC.
    Ms. Ocasio-Cortez. Oh, I just, quickly, wanted to ask about 
a unique reality of New York City counting, which is that we 
move a lot and especially as rent goes up we are moving much 
more rapidly. We will be living in a place for two years, have 
to move again.
    So I am interested in this process of mailing people, 
whether it is a code or a paper questionnaire. How do we make 
sure that--you know, how are we accommodating or changing our 
process to really be adaptive to that reality?
    And for those kind of undercounted units, when a landlord 
says, what basement, how do we make sure that people get 
counted in those situations?
    Ms. Menin. So it is a great question and that is, again, 
why I think we are lucky to have the resources and the city 
government we have here in New York City because the Department 
of City Planning has for the past couple of years been working 
on this very issue to make sure that new addresses and 
incorrect addresses had been rectified and they have turned 
them over to the Federal Census Bureau.
    Mr. Salvo. Yes. We--what drives the process is the address 
list. You have to have a recognized address that is on the 
Census Bureau's master list in order to be enumerated.
    If you do not have a recognized address you can't be 
enumerated. So our job----
    Mr. Raskin. Wait. But our homeless people are not counted?
    Mr. Salvo. Oh. No. No. I am sorry. Yes. Yes, of course, 
they are. But I am talking about housing units now.
    Mr. Raskin. Okay.
    Mr. Salvo. The addresses of housing units, which is why I 
want to emphasize that code that Julie referred to, that code 
locks you into an address on the Census Bureau's master address 
file.
    For three years now, building up to the 2020 Census, we 
have been working in the field to verify addresses in difficult 
neighborhoods to make sure that those addresses make it.
    Those people in the addresses, in those--in those--excuse 
me, in those housing units, that is what you are referring to 
when you think about mobility if the question will be where do 
you live most of the year most of the time.
    Okay. And if you live at that location most of the time, 
you will be enumerated, and the Census Bureau also has 
questions to pick up people who might have second, you know, 
addresses so they can sort it out, for example.
    Ms. Ocasio-Cortez. And if their address is not recognized?
    Mr. Salvo. If their address is not recognized, the Census 
Bureau will send somebody out at the address that is listed and 
they will undergo a process, and there is a possibility that 
you will not be enumerated.
    That is certainly--so you have to take that into account, 
and you can also take into account that--what was mentioned 
earlier. The Census Bureau has fewer people going in the field. 
They are overburdened.
    I just want to say that the Census Bureau professional 
staff has been fabulous. Okay. They work very closely with us.
    But they are limited because the preparation hasn't been 
there in terms of budget and in terms of the number of people 
that they are going to be able to mobilize.
    Ms. Ocasio-Cortez. Thank you.
    Mr. Raskin. Thank you very much.
    I will--let us thank this wonderful first panel for their 
terrific presentations.
    [Applause.]
    Mr. Raskin. We are going to take a five-minute break but I 
want to call up the next panel. We will resume in five minutes.
    But I would like to call up Marc Morial and Greta Byrum, 
Jorge Luis Vasquez, Elizabeth OuYang, Lurie Daniel Favors, Kazi 
Fouzia, and that is it.
    So please have them come back and we invite you all to come 
back in five minutes.
    [Recess.]
    Mr. Raskin. All right. Welcome back, everybody.
    Again, I want to thank the first panel for their excellent 
testimony, and welcome, our second panel of witnesses, 
beginning with the president and CEO of the National Urban 
League, Marc Morial, the former mayor of New Orleans, right?
    Mr. Morial. Yes. Right. Thank you.
    Mr. Raskin. Greta Byrum, who is the Co-Director of the New 
School Digital Equity Laboratory; Elizabeth OuYang, who is a 
civil rights attorney, educator, and community advocate and 
professor at Columbia; Jorge Luis Vasquez, who is the associate 
counsel of Latino Justice, the Puerto Rican Legal Defense Fund; 
Lurie Daniel Favors, the general counsel for the Center for Law 
and Social Justice; and Kazi Fouzia, who is the Organizing 
Director for DRUM, Desis Rising Up and Moving.
    Thank you all for joining us, and each of you is going to 
be allotted five minutes for your opening statement and if 
there is something you can't get in I am sure we will get back 
to it when we do the questioning.
    So Mayor Morial, we will begin with you.

  STATEMENT OF MARC MORIAL, PRESIDENT AND CEO, NATIONAL URBAN 
                             LEAGUE

    Mr. Morial. Thank you. Thank you very much.
    First of all, good afternoon. Chairman Raskin and members 
of the committee, I am Marc Morial. I serve as the president 
and CEO of the National Urban League.
    We are headquartered in New York City and we lead a network 
of 90 Urban League affiliates across the Nation. Importantly, 
this is my fourth Census.
    I previously served as mayor of New Orleans for eight 
years, president of the United States Conference of Mayors, a 
member of the Louisiana state legislature.
    In 2010, I served as Chairman appointed by President Obama 
of the Census Advisory Council. Currently, the National Urban 
League leads the Black Census Roundtable. The Black Census 
Roundtable is a coalition or network of some 100 African-
American, Caribbean-American, African immigrant, and Afro-
Latino organizations that are focused on ensuring a complete 
and full count.
    Let me say this. Never before in the four times that I have 
done the Census have I been more concerned that the possibility 
of an undercount is real.
    The Census is about money and power. The prospect of an 
undercount could affect the political dynamics of the United 
States throughout the next decade.
    It could be the precursor for gerrymandering and under-
representation by urban communities and communities of color 
nationwide. Nowhere is that problem more possible than here in 
New York City.
    What I want to do with the time that I have is help 
everyone focus on a few things and that is where historically 
has the undercount been. The undercount--for example, in 2010 
the black population had the highest net undercount and 
omission rate of any major race in the United States.
    Based on the Census Bureau's own post-2010 Census 
demographic analysis, the net undercount for black people was 
2.5 percent and the net over count for non-African Americans 
was one half of 1 percent.
    Black males in their 20's, 30's, and 40's had exceptionally 
high net undercount rates and high omission rates. The net 
undercount rate for black males age 18 to 49 was very high, 7.6 
percent, based on the Census Bureau's own demographic 
information.
    The net omission rate for black male renters ages 30 to 49 
was almost 20 percent of all black men who rented housing in 
2010.
    These figures should alarm each and everyone but, more 
importantly, should focus the efforts of the state of New York, 
the city of New York, community-based organizations on where 
the emphasis in a get-out-the-count effort ought to be, where 
the emphasis in any investment in resources ought to be.
    Very importantly, in 2010, young black children ages zero 
to four were undercounted at twice the rate as young nonblack 
children. The omission rate for the black alone or in 
combination population in 2010 was 9.3 percent.
    Non-Hispanic white communities are very likely to be over 
counted, meaning wealthier white communities receive more than 
their fair share of resources and representation. This 
information is the Census's own information.
    No. 2, I want to offer this observation. There is a lot of 
talk about the form and the online initiative that the Census 
will undertake this year. It is expected that people will have 
four options to participate in the Census: No. 1, the online 
option; No. 2, a telephone option; No. 3, a traditional mail-in 
form option; and fourth, an enumerator option.
    But what does the Census Bureau's own research say about 
which of those options is going to be preferred by American 
citizens? The Census Bureau's own pre-2020 Census testing says 
that some 40 percent of white Americans and 50 percent of 
Americans of color are going to wait until the enumerator comes 
to the door.
    That is why it is absolutely unacceptable, and this 
committee has to stand strong in saying to the Census, you 
cannot reduce the number of enumerators by 40 percent, you 
cannot reduce the number of local offices by 50 percent and 
expect that there is not going to be an undercount.
    I am asking this committee, based on my many years of 
experience with this, to take whatever steps are necessary to 
elevate this issue. If there are no enumerators, the Census 
Bureau's own information--I want to emphasize this--suggests 
that the online option is not going to increase the number of 
respondents or decrease the number of respondents who are going 
to wait for the enumerator--that all it will mean is that those 
that might historically choose to send in the form may choose 
to go online.
    This is a critical component, which is why a lot of the din 
and the noise would suggest that because of technology, quote, 
unquote, we don't need as many enumerators.
    Because of technology, we don't need as many local offices 
as we have had in the past. Their own research suggests 
absolutely contrary is the case.
    We have to encourage our communities and we have to do what 
we can to increase the response rates whether it is online or 
to the mailed form.
    How can we do this? Historically, the Census Bureau had 
local offices and placed additional forms in libraries, public 
schools, community centers, and local offices.
    I have not heard a commitment by the Census Bureau to make 
additional forms available to those people who may not get a 
form through the mail or those people for whom the form may get 
lost or misplaced.
    Tremendous efforts must be made and I would say that that 
this committee and the Congress of the United States and the 
House of the United States can be and provide the only 
protection available against an undercount in the 2020 Census.
    Mr. Raskin. Thank you, Mayor Morial, for those excellent 
points and I am sure we will pick up on them in the 
questioning.
    Ms. Byrum, let me come to you for five minutes.

   STATEMENT OF GRETA BYRUM, CO-DIRECTOR, NEW SCHOOL DIGITAL 
                       EQUITY LABORATORY

    Ms. Byrum. Thank you, and thank you so much for holding 
this hearing.
    I wanted to just start with a statement of the value that 
we are looking for, which is that we need a fair and accurate 
representation and functional governance, and for that we need 
an accessible, accurate, and confidential Census. Everybody so 
far that has spoken has underlined this.
    The problem is that the current system is optimized for 
digital participation and that means that people who are under 
connected or unconnected face a challenge and the bar is higher 
for those people to participate.
    The overwhelming public focus on the high-stakes 
citizenship question has taken priority in our national 
conversation and, as a result, we are behind in addressing 
safety and security and functionality concerns surrounding the 
digital transition.
    So just to underline what this means in terms of the 
digital divide, what the stats look like is that whereas 72 
percent of white people have internet at home, there are 35 
percent of adults nationwide who do not have internet at home 
and, of those, 53 percent of Latinx people do not have internet 
at home, 43 percent of black people do not have internet at 
home, 42 percent of rural people do not have internet at home, 
and 50 percent of those who are 65 and older.
    So that is a big problem, and what we saw in the Providence 
end-to-end test was that whereas among the general population 
70 percent of those who participated online and 30 percent 
participated via forms or 6 percent via the phone system, in 
the Latinx population, 20 percent participated online as 
compared to 80 percent who participated by other means.
    So that is a huge disparity, and we are likely to see this 
disparity, you know, have a huge impact in terms of the numbers 
that come back.
    And I want to underline also that digital inclusion is not 
just a question of access. It is a question of digital literacy 
and a feeling of safety and support when people do engage 
online.
    So in my opinion, it is not enough to tell people that we 
will have hot spots or that they will be able to find access. 
We actually have to think about the safety and security and 
trust of people who are choosing to engage digitally.
    And there is another question, which is what happens if 
online response rates are lower than expected and, as a result, 
the costs of paper and pencil canvassing operations or 
canvassing operations exceed the budget that is allocated? We 
have not heard an answer from this from the Census Department, 
is there a possibility that we would not have enough funding to 
actually close that gap on paper forms and enumeration?
    I think there is a possibility, given that the Providence 
end to end test ran out of money and therefore were going into 
the count with some major systems untested because the second 
and third field tests were canceled.
    Furthermore, as Mr. Salvo pointed out, what we are looking 
at is, essentially, a count that is end to end technological 
process that is going to use advanced statistical modeling and 
geographic modeling.
    And what that means is that if we get bad data into this 
Census we could be looking at a predictive decennial Census 
that is fed with biased information, meaning that it 
prioritizes those who are digitally privileged--that is, those 
who are able to get online to fill it out.
    So, again, we are asking are CBOs, libraries, and community 
anchors prepared to offer safe secure internet access as well 
as digital literacy support for a public who is nervous about 
political targeting, hacking, surveillance, and data security?
    Those are real questions that impact what people are 
willing to do. And while hot spots and get-out-the-count 
outreach apps are useful, could they also create a data trail 
that endangers targeted populations if data is not well-managed 
by the folks that are handling that data or, for example, third 
party advertisers who gain access to it?
    As an answer to all of this, I want to say that public 
libraries are a huge resource that have not been fully 
mentioned today. We talk about CBOs.
    Does that include libraries? Libraries have not been 
specifically resourced to provide the critical public digital 
infrastructure that they provide every day for the Census.
    Ninety-nine percent of New York's hard-to-count communities 
are within five miles of a public library and 76 percent of the 
hard-to-count communities are within one mile of a public 
library.
    Libraries are critical digital infrastructure. So I believe 
that in order to create a fair and accurate count what we need 
to do is think about libraries and CBOs as critical 
infrastructure and, as such, we need to resource them to create 
safety.
    Now, the Digital Equity Laboratory is issuing some 
guidelines and suggested recommendations for how to improve 
public safety at hot spots and public libraries.
    However, that will take planning and resourcing, and in 
order to make that happen, we need, No. 1, transparency from 
the Census Bureau and that includes information such as which 
browser extensions are going to work well with the Census; are 
they going to allow for add-ons for privacy protection--browser 
add-ons?
    We need to know that there is infrastructure support and 
that this infrastructure is protected, and finally, we need to 
know that Title 13 will be honored by all workers and does 
Title 13 apply to, for example, library staff who are helping 
fill the survey out.
    These are all questions that we don't have answers to and 
we also don't have answers to the full terms of the data 
sharing agreement between the Census Bureau and DHS.
    Mr. Raskin. Thank you very much, and we will followup on a 
number of those.
    Ms. OuYang, I am coming to you. Five minutes.

STATEMENT OF ELIZABETH OUYANG, CIVIL RIGHTS ATTORNEY, EDUCATOR, 
                     AND COMMUNITY ADVOCATE

    Ms. OuYang. I just want to reiterate that the Census is the 
heart of democracy. For more than two centuries it has been a 
constitutionally mandated Federal program that requires full 
participation of all persons.
    This intent was clear. James Madison, one of the 
Constitution's framers, believed allocations of seats must be 
founded on the aggregate number of inhabitants. Not citizens--
number of inhabitants.
    And any manipulation of apolitical scientific data for 
partisan politics can infringe not only on this constitutional 
mandate but also the right to vote, the Electoral College, as 
we saw the significance of that in the 2000 and 2016 elections, 
and redistricting--indeed, your very existence in Congress.
    And another area of constitutional concern is the ability 
of Federal agencies to safeguard data collected by the Census. 
The Census has a documented checkered past with respect to 
violating the confidentiality of respondents' information and 
public trust.
    In 1943, the U.S. Treasury secretary requested the names 
and whereabouts of Washington, DC. residents of Japanese 
ancestry from the Census Bureau. The bureau released the data, 
along with block level data of neighborhoods more heavily 
populated with Japanese Americans in eight states, aiding the 
government's internment of people of Japanese ancestry.
    In 2002 and 2003, the Census Bureau divulged neighborhood 
data on Arab Americans to the U.S. Department of Homeland 
Security, including detailed info on how many people of Arab 
background lived in certain zip codes.
    The Executive Branch's efforts to repeal DACA and temporary 
protective status for Haiti, Nepal, and Central American 
countries who are still recovering from natural disasters and 
facing civil unrest, imposing a Muslim ban, and separating 
children from families has led to great distrust by immigrant 
communities of the Federal Government and its intentions.
    This distrust has been further fueled with Immigration 
Customs & Enforcement making arrests at local courthouses, a 
respected venue where residents are trying to comply with state 
law.
    I do want to answer Congresswoman Maloney's questions about 
whether just simply enforcing or simply making it known the 
protections of Title 13 is enough, I do not think it is, and 
would love to address that further later.
    The subcommittee knows well the important role of 
community-based organizations doing grassroots organizing. 
These efforts have propelled monumental, historical, and 
present-day civil rights legislation and mobilized masses to 
apply for affordable health care, respond to natural disasters, 
and participate in government research on health, 
transportation, and housing.
    I want to address Julie Menin's response as to the proposed 
$8 million for community-based outreach and pop-up centers in 
community-based centers.
    I respectfully would argue that that is woefully 
inadequate. The Fiscal Policy Institute did a report upon which 
they based $40 million for the state of New York for community 
outreach efforts.
    Half of that $40 million was to be for New York City. If 
you take half of that--$20 million--and not even half, 8 
million--you are talking of an upwards of 1 million and more 
undercounted hard-to-count communities that won't be reached.
    And when you talk about pop-up centers in community-based 
centers, it is imperative that community-based organizations be 
compensated. You are talking about hours of mobilization, 
interpreters, education and training before hand.
    If you take one day, an eight-hour day, just one day of 
community outreach as an assistance center and you staff that 
with just 10 people, you are talking--if you are averaging a 
half hour for each person to complete the Census because you 
are taking into consideration language needs, you are talking 
about reaching 320 people in one day.
    And you talk about a Census that is going to be live for 
eight weeks and you talk about staffing a pop-up center at a 
community-based organization. At best, you may be only able to 
reach 9,000 people in that, you know, eight weeks at one 
center.
    And so, you know, it is just not possible and that money 
needs to be appropriately allocated.
    Mr. Raskin. Thank you very much, Ms. OuYang.
    Mr. Vasquez, to you for five minutes.

  STATEMENT OF JORGE LUIS VASQUEZ, ASSOCIATE COUNSEL, LATINO 
                         JUSTICE, PRLDF

    Mr. Vasquez. Thank you, and good afternoon. Greetings on 
behalf of Latino Justice PRLDF, a national civil rights 
institution in the Latinx community headquartered here in New 
York with offices in New York City, Long Island, New York, and 
Orlando, Florida.
    I thank you for the invitation to share our views on the 
upcoming decennial Census and its effect on the Latinx 
community, the Nation's largest racial and ethnic minority.
    For purposes of my testimony, I would like to outline three 
points on how the Census will impact the United States and the 
Latino community, and the threat of an undercount.
    First, it will cause communities in which Latinos live in 
to lose Federal funding in critical areas such as education, 
health care, and other social services.
    Second, it will dilute political power in the Latino 
community and may actually prevent non-English speaking Latino 
citizens from exercising their right to vote.
    Finally, it will reduce capital investments in the Latino 
community and may hinder emergency responders from adequately 
preparing to deal with natural disasters in the Latino 
community.
    Mr. Chairman, as you noted earlier, there are several 
hundred Federal-funded assistance programs that are dependent 
on government money and subsidies. But I would like to 
highlight how those affect Latinos specifically.
    Currently, there are 13.9 billion Title 1 grants to local 
education agencies. Between 2014 and the 2015 school year, 
Title 1 served more than 24 million children. Over one-third of 
those children were Latinos.
    Eleven point two billion dollars goes to special education 
grants of which 1.3 million infants and toddlers of Latino 
origin receive assistance. Eight point three billion dollars go 
toward Head Start programs.
    In 2015 to 2016, Latinos compromise over 37 percent of 
those children. Any undercount of the Latino population, even a 
small one, will result in an artificial low allocation of 
Federal funding to the Latino community and the communities in 
which Latinos live in.
    As it relates to the dilution of political power, as it was 
stated earlier, an undercount of anyone will likely affect the 
amount of congressional representatives that is afforded to 
their community.
    But an undercount in the Latino population may also have an 
adverse consequence on the right to a Spanish ballot for the 
citizens with limited English proficiency as Census data is 
used to determine whether a minority citizen is entitled to 
voting language assistance under Section 203 of the Voting 
Rights Act.
    Last, I would like to talk about reduction in capital 
investments and the destabilization of the Latino community. 
Private businesses depend on reliable Census data in their 
economics and strategy planning decisions.
    As a financial force in the economy, Latinos spent over 
$1.3 trillion in Fiscal Year 2015 and it is expected to reach 
over $1.7 trillion by 2020.
    Approximately 4.4 million Latino-owned businesses in the 
U.S. contribute more than $700 billion annually to the U.S. 
economy and depend on the Census information to be accurate.
    I would like to quote Alexander Hamilton: ``There can be no 
truer principle than this, that every individual of the 
community at large has an equal right to the protection of 
government. An undercount of any community will compromise 
this.''
    And last, to echo what Mr. Morial said earlier, and just to 
add one addition, the Census is about money, power, and 
respect. We are talking about the money that our people pump 
into this country.
    We are talking about the money that the government 
allocates. We are talking about political power, buying power, 
and we are talking about respecting data so that way we could 
continue to prosper as a community and as a government.
    Thank you.
    Mr. Raskin. Thank you very much.
    Ms. Favors, you are recognized for five minutes.

STATEMENT OF LURIE DANIEL FAVORS, ESQ., GENERAL COUNSEL, CENTER 
                    FOR LAW & SOCIAL JUSTICE

    Ms. Favors. Greetings, Chairman Raskin and members of the 
subcommittee. My name is Lurie Daniel Favors and I serve as the 
General Counsel for the Center for Law and Social Justice.
    I am a civil rights attorney with 15 years of experience 
advocating for the protection of racial justice and civil 
rights of black New Yorkers.
    The Center for Law and Social Justice mission is to provide 
quality advocacy and community legal services to New Yorkers of 
African descent and to the disenfranchised.
    This is why in 2017 we convened the New York City Black 
Leadership Advisory Coalition for Census 2020, a Pan-African 
coalition designed to ensure that all New Yorkers of African 
descent are fully counted on the 2020 Census.
    Despite political protestations to the contrary, accurate 
data, like accurate facts, are vitally important to arrive at 
the proper outcome.
    In the case of the Census, the proper outcome is the 
correct and proportionate distribution of electoral power and 
fiscal resources regardless of community, zip code, or race.
    The inclusion of the citizenship question on the 2020 
Census threatens to negatively impact the Nation's ability to 
reach that goal and the resulting inaccuracy will unnecessarily 
lock some of our country's most vulnerable communities into a 
political and economic underclass.
    The negative impacts of a flawed Census data set are myriad 
and they are particularly troublesome for New Yorkers of 
African descent.
    New York City, which has the highest population of people 
with Pan-African descent in the United States, had one of the 
lowest response rates during the 2010 Census.
    These populations, all of African descent, include African 
Americans, Caribbean Americans and Caribbean immigrants, 
African immigrants and Afro-Latinx communities.
    Racial disparities in Census enumeration are not new, 
however, and low Census counts in black communities are an 
outgrowth of continuing patterns of racial oppression that date 
back to the time when Africans were first enslaved on these 
shores.
    When government or community groups engage in Census 
outreach or education in African descendant communities without 
considering the role of race and racism and how those two have 
historically shaped black community Census participation, we 
essentially undermine our efforts before they begin.
    As noted, one of the earliest references to counting people 
of African descent in the American Census was in the three-
fifths clause of the United States Constitution.
    This early instance of racially manipulating the Census 
count was for the consolidation of political power in the hands 
of white supremacist slave owners.
    They misused Census data to protect and perpetuate the 
economic system of slavery and in the 70 years that followed 
the passage of the three-fifths clause, Congress was able to 
pass additional racist laws like the Missouri Compromise, the 
annexation in 1845 of Texas, which was intended to be an empire 
for slavery, the passage of the Fugitive Slave Act, also known 
as the Bloodhound Law, the law that allowed slavery to flourish 
in Utah and New Mexico, and the passage of the Kansas-Nebraska 
Act, which ensured slavery could continue to thrive.
    Not a single one of these laws, which were designed to keep 
black people enslaved, oppressed, and locked into the bottom of 
society, could have passed without the three-fifths clause 
decades-old manipulation of Census data.
    To see how this plays out in modern life I would like you 
to consider two families. The first is the Jackson family and 
the Johnson family.
    The Jacksons are a family of African descent and they come 
from a community that is traditionally undercounted on the 
Census. This family's history of interaction with the 
government is one that has been scarred by government-sponsored 
racial discrimination and the denial of equitable civic and 
societal engagement opportunities. This family knows that when 
the government typically asks for information, the end result 
is rarely one that benefits their black family or community.
    In the 1600 and 1700's, a demand for government information 
might mean that family members were sold into slavery, sent to 
parts unknown, tortured, raped, or killed, in not necessarily 
that order.
    In the 1800's, a government demand for information might 
result in escaped enslaved family members being returned to 
brutal slave owners under the Fugitive Slave Act, and in the 
1900's and 2000's, it might mean that ACS would show up at your 
door to take your family away from you.
    It might mean that banks were going to issue your formerly 
redlined community fraudulent bank loans, assuming you got a 
loan at all, and these loans, which would be riddled with such 
toxic racist loan products that entire black communities lost 
and continue to lose more than half of our collective wealth 
through the foreclosure crisis.
    As a result of this history, this black family is 
justifiably reluctant to deal with the Federal Government and 
might fill out one Census form, though they could qualify for 
three or four.
    On the other hand, the Johnsons, who are white, have a 
history that is marked by racial privilege and the over 
distribution of societal engagement and benefit opportunities. 
They have a positive history of civic engagement. This family 
knows that when the government asks for information, once they 
turn it over good things will follow.
    This family benefits from racist policies and legislation 
like the Homestead Acts where the government forcibly removed 
Native Americans and opened up those lands to white families 
like the Johnsons.
    It means they became landowners and homeowners nearly 
overnight practically free of charge. When their grandfather 
came home from the war, he was able to participate in the GI 
Bill.
    Unlike the grandfather in the Jackson family, he received 
preferential rates for student aid loan and mortgages and, as a 
result, the Johnson family was able to grow the wealth they 
received in the form of free land and housing and increased 
this with education and housing benefits that were racially 
distributed to whites and often whites only.
    So when this white family is asked to turn over information 
on the Census, they have a history that encourages them to do 
so. And in the end, they may have three or four Census forms 
submitted and they will live in a community that is going to 
receive more than their fair share of resources and political 
representation, all of which means that when it comes to the 
2020 Census participation in black communities must have a 
culturally responsive approach to Census outreach and 
education.
    Black community organizations and faith-based groups must 
be funded for Census work so that they, the trusted voices, can 
continue to educate and empower the community.
    Members of Congress and this community must exercise any 
and all oversight powers to ensure the Census Bureau is 
conducting the Census in a manner that will produce an accurate 
count and this means rejecting the use of policies and 
questions on the Census that are likely to reduce that 
participation.
    Funding for the Census, which remains woefully underfunded, 
must be met in a way that is going to ensure that pop-up 
centers, complete count community associations, black 
associations, community boards, school districts, and other 
areas of civic engagement are going to have the funding that 
they need in order to do the work that is required.
    Thank you.
    Mr. Raskin. Thank you very much, Ms. Favors.
    And Ms. Fouzia, we will come to you.

      STATEMENT OF KAZI FOUZIA, DESIS RISING UP AND MOVING

    Ms. Fouzia. Honorable Representative, my name is Kazi 
Fouzia and I am the Organizing Director of DRUM, Desis Rising 
Up and Moving.
    DRUM is a 19-years-old civil rights organization of nearly 
4,000 low-income South Asian and Caribbeans fighting for our 
rights, immigrants, and youth.
    Working in communities of color, our member are low-income 
people. They are cab drivers, restaurant workers, retail 
workers, domestic workers, and their children who may be 
citizens.
    The 2020 Census, the question that is asked and the method 
in which it is rolled out will have immense impact only for our 
communities but also for our city, our state, and fundamentally 
our society and our democracy.
    Before I go to the details of my testimony, I want to 
highlight our current context. We have an administration that 
has openly expressed anti-immigrant views.
    High-ranking members of the administration have expressed 
to have--force that want to get rid of all marginalized 
immigrants from our country, all of this evidence in statements 
from the administration as well as aggressive policies being 
implemented every day.
    And impacts of this statement and policies are very real. 
Over the last nine months, we have engaged over 5,000 people in 
person about the 2020 Census, the citizenship question, the 
safety and use of personal data--misused personal data and the 
impacts on funding and representation.
    We have held public education workshops in public squares 
and at community events, and I want to--I want you to know that 
the fear is very, very high, not only among those that are 
immigrants but also among those who are citizen--citizens 
whether their noncitizen family member would be at risk. But 
they are also worried their data will be misused to target them 
and their communities, this fear is not unfounded.
    We already know about turning over the data related to 
Japanese internments in the--after World War II. But those 
references presume that was last time data was misused and 
there are now protection in place.
    But in--after 9/11 Census data about Arab communities down 
to--was also done over U.S. Customs Service through 2002 and 
the CBP 2003.
    We need to be ensured the data of individuals are aggregate 
will be secured that also include the elimination of question 
related to the citizenship or immigration on the Census--that a 
step will be taken to ensure protection of data--a step will be 
taken to communicate and then secretly to the communities.
    We have years of experience in this case. We have nine 
month of experience specific of Census as well experience from 
the PBS Census.
    We need the on-the-ground people with experts in our 
communities to be able to effectively address caution and 
concern that so many people have. This cannot be done by just 
printing ads on the media or making announcement.
    People need to be engaged and that recourse, familiarity, 
expertise, time and all of the request funding and resource. If 
we do not commit the resources, it will lead to severe 
undercounting with material and political impacts.
    We know that Census data is used to determine funding for 
almost all of our basic needs, from basic infrastructure, 
public benefits, preschool, education, to transit, to 
hospitals, to health.
    All parts of Queens have the most overcrowded school in the 
city and in the country. Elmhurst Hospital and Jamaica Hospital 
are also among the most overcrowded and under resourced in the 
city.
    This impact of undercounting cannot be understated and 
consequences will be borne by our society as a whole. We have 
seen how measles outbreak did not just impact people who choose 
not to vaccinate their children.
    We live in the communities. Impact one of us, impact all of 
us. New York state lost one or two congressional seats as a 
result of undercounting. That means that this is an issue of 
democracy. The question related to citizenship and immigration 
and the lack of resources or substantive outreach efforts 
directly undermine our democracy.
    I wish I had more time to share our experiences and the 
content of our conversation with community members with you. 
But I want to know that this is issue critical and how we 
implement Census 2020 will have long-lasting impact on our 
communities, our society, and our democracy.
    Mr. Raskin. Thank you very much, Ms. Fouzia, for your 
excellent testimony.
    I am moving into the record the NALEAO report from last 
week and a written statement as well from the National 
Association of Latino Elected and Appointed Officials, and 
without objection, those will be entered into the record.
    Mr. Raskin. We will give each of the members five minutes 
before we close.
    Mrs. Maloney?
    Mrs. Maloney. Thank you so much, Mr. Chairman, and I would 
like to say an important part of the Census is hiring good 
people to get the count.
    So we need to get our neighborhood people hired and they 
are having job openings now and I am sponsoring with Community 
Board 8, with other community leaders, to jobs fairs. One is 
next week, June 6, from 5 to 8 at the Stanley Isaac 
Neighborhood Center on 93d Street and the river.
    People can come, fill out forms. The Census Board will be 
there. Encourage everyone to come. The jobs are very good jobs. 
They start at $25 an hour and go up to managing offices, and on 
June 11th here in Queens we are having a Queensbridge jobs fair 
from 3 to 8 to make people aware of all these jobs.
    I want to really reference our county leader, Greg Meeks, 
who pointed out that we have found--finally found one issue 
that Republicans and Democrats are united on, and that is 
getting an accurate count.
    And it is one of these issues that pulls us all together, 
all of our 160 countries that are here in Queens, the 96 
languages. I would say to the imam to the priest, the rabbis, 
the ministers, they are all united, even the cab drivers and 
their riders.
    Rarely in government do we have something that we all agree 
on that we know needs to be done and that we are united on.
    So let us take advantage of having this positive program to 
work on.
    I would like to ask the mayor how he was able to use proper 
counts of people in New Orleans to bring services that they 
need in education and health care and how were you used--how 
did you use the data to really measure the progress that you 
had in New Orleans and measure what needed to be focused on and 
areas that you needed to work on?
    And in case I am cutoff, because I know you are going to 
have a lot to say about the positive things that needs getting 
an accurate count, I wanted to respond to Ms. Yang and ask her 
and Mr. Velasquez and Ms. Favors and others how you respond to 
this incredibly high level of fear in New York.
    I will confess, for the first time in my entire life I have 
not been successful in keeping families together. I had two 
families I went all the way up to the top of government, and 
they deported the father of five children, the father of three 
children, married to an American. Their children were American. 
Yet, they were deported.
    So there is a lot of fear of mistreatment in the counting 
process and in status, and even though it is the law that you 
are going to protect this information, how do you overcome 
really the challenge that people live under--the fear, 
actually, they live under in New York, like I have never seen 
before?
    But first, I want to hear the positive ways with you, Mr. 
Mayor.
    Mr. Morial. Yes, I--yes. So----
    Mrs. Maloney. And used by the Urban League also to boost 
economic opportunities for neighborhoods that need more help.
    Mr. Morial. So thank you very much for a great question, 
and I think the testimony earlier was that there were 132 
Federal programs whose formula funding was based on information 
in the Census, and that rolled up to some $670 billion, which 
is a substantial portion of the overall domestic budget of the 
United States.
    I think for community-based leaders who might be here at 
the hearing or listening, if you think of the community 
development block grant program, which is one of the most 
crucial dynamics of rebuilding urban communities, the 
allocations in that program are based entirely on the Census 
information.
    If you think about the Workforce Investment Opportunity Act 
program, which is a fundamental job training program, and I 
could continue to go on.
    I think what people in the community could mean--you know, 
a difference of just a few percentages can mean millions of 
dollars or tens of millions of dollars for a city like New York 
or for boroughs like Queens and Brooklyn and the Bronx--that an 
undercount can impact the ability of community leaders to do 
the work that they have to do with public dollars.
    And so it is crucial. Now, here is what is also important. 
A miss on the Census affects you the entire decade. It is not 
like you get a re-do the following year.
    It affects the entire decade, unless there is some 
adjustments along the way. So I really hope people will 
understand on the research side the decennial Census and the 
American Community Survey are foundational, for example, to the 
report we issue every year at the National Urban League, which 
is the state of black America report, which is referenced in 
congressional testimony, which is used by resources, which is a 
baseline report.
    So those are just some examples. I want to say that we have 
work to do to educate people that the Census matters in their 
day-to-day lives and I think that is the unifying message.
    It matters. It matters to money. It matters to power, while 
we work on all of the things that are necessary to ensure a 
complete count.
    Mr. Raskin. That is great.
    Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. Thank you.
    Thank you all so much again for coming to testify.
    And Ms. Fouzia, your work in organizing with DRUM is 
particularly critical in our community in New York 14 and 
Jackson Heights and Parkchester, in so many different areas of 
the city.
    And I am interested in learning and hearing from your 
insight, and what type of messaging and what types of 
organizing techniques do you think would be most effective to 
get our communities filling out the Census?
    We have heard so much about all of the deterring aspects 
and I am interested in hearing from an organizer and a leader 
in the community what would be most--what are some of the most 
effective messages that we can give?
    Ms. Fouzia. So I am part of a little bit campaign 2010 
Census, just door knocking stuff with DRUM back when I was the 
only member and I was undocumented at that time, and I saw how 
much fear people have when we knocked their door at that time.
    And as an undocumented person also, I have also fear that--
talk with communities and say I am also undocumented--don't 
feel like that, like that kind of--so now the situation 
changed. I am part of organizing and also we held a couple of 
community events which show people, like, a hospital, park--all 
resources.
    Visually we are showing the community plaza and talk with 
people about how we lost resources and also a congressional 
seat.
    But people have a question: how about safety?
    Ms. Ocasio-Cortez. Yes.
    Ms. Fouzia. We--person undocumented population from South 
Asian low-income communities. People have fear and fear is 
real----
    Ms. Ocasio-Cortez. Absolutely.
    Ms. Fouzia [continuing]. and in my experiences I saw when 
we work with New York City ID we taught people of power.
    There is power your information will be protected. Your 
physical hard copy will be destroyed after three months from 
mailed off, so and so. Then we give them hope for the safety 
and they sign up. They go to library and pop-up center, get 
their ID.
    But when is that kind of protections in Census? I just 
heard today about--yes, what about parking. As an organizer, if 
heard today about parking, community don't know. We need sorely 
something. Then we can say to people don't worry--feel better.
    Ms. Ocasio-Cortez. Thank you, Ms. Fouzia.
    Yes, and even just from an organizing perspective, all of 
us, whenever we are up for reelection we need to count who is 
going to show up and cast a ballot on Election Day.
    And I remember walking oftentimes in Corona, in Jackson 
Heights, knocking on doors and the fear that was so palpable, 
because we understand that for so many of our families you are 
one door knock away from your life being completely up-ended.
    And so to that end, Ms. OuYang, if the citizenship question 
does appear on the Census, what are some of the most effective 
techniques that we can implement in protecting the identities 
and of protecting the information, the confidentiality of the 
information, on all of the returned questions?
    Ms. OuYang. First of all, I applaud Congresswoman Maloney 
and her leadership in introducing the Census IDEA Act. I think 
particularly this committee, focused on civil rights and civil 
protections must aggressively pursue the passage and 
immediately of the Census IDEA Act, which mandates a three-year 
review for each question proposed to the decennial Census and 
that would effectively deal with the citizenship question, 
which was not vetted and should be excluded from the Census.
    Second, I do feel it is an issue of will here. If what is 
primary and what constitutionally is mandated for an accurate 
and complete count, then no person should have to decide 
between getting basic benefits and fearing the complete 
uprooting that you are talking about, and the government must 
send that message.
    We saw at the city, Congressman Menchaca--City Councilman 
Menchaca's leadership, the protections that Fouzia talked 
about. We saw with the Immigration Act of 1986 and amnesty--do 
you remember that? I lived through that. I helped many people 
get legalization.
    There were protections in place that allowed people to come 
forward, that didn't go after their employers because, 
remember, you had to show that you could support yourself if 
you came before 1982 and remained consistently.
    Well, our laws don't allow you to work. How do you do that? 
And so people had to come forward with records, had to divulge 
things, and the government had the right spirit and did not go 
after employers or other who hired people, you know, off the 
books and things like that.
    If the true intent is to get a complete count in which this 
whole country is dependent on accurate data, then the 
government must send the message.
    And so I would propose that the government must make it 
very clear that any person who is undocumented, who is required 
to complete the Census will not be deported. There will be 
amnesty.
    It doesn't mean a legal status. It just means not being 
deported. If they can show that they completed the Census and 
so forth and so on that they will not be deported, you know, 
and it is that protection that Fouzia is talking about.
    It is not enough, given all that has happened, to say oh, 
we got Title 13 and there is a penalty for anybody who 
discloses. You know what I mean? Because there is a thousand 
and two different ways to get around that penalty, you know 
what I mean, if the government wants that information.
    So the government must make it unequivocally clear that no 
one will be deported.
    Mr. Raskin. All right. Thank you very much for that 
powerful closing statement and I want to thank all of our 
witnesses for their sensational testimony today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
any of the witnesses to the chair and we will forward it to you 
for a response.
    And I would just ask if you could return with any 
statements you have as quickly as you are able to do so.
    Again, I want to thank all of you for participating. I want 
to thank our terrific audience here and our friends at 
LaGuardia Community College and to the members for 
participating.
    Thanks so much.
    [Applause.]
    Mrs. Maloney. Thank you, Mr. Chairman. Thank you. There 
would be no hearing without you. You are the hero.
    [Whereupon, at 4:48 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
